Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




      Adverse Event Reporting
      For Dietary Supplements

        An Inadequate Safety Valve




                             APRIL 2001
                            OEI-01-00-00180
                         OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, is to
protect the integrity of the Department of Health and Human Services programs as well as the
health and welfare of beneficiaries served by them. This statutory mission is carried out through a
nationwide program of audits, investigations, inspections, sanctions, and fraud alerts. The
Inspector General informs the Secretary of program and management problems and recommends
legislative, regulatory, and operational approaches to correct them.

                            Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of
Inspector General. It conducts short-term management and program evaluations (called
inspections) that focus on issues of concern to the Department, the Congress, and the public. The
inspection reports provide findings and recommendations on the efficiency, vulnerability, and
effectiveness of departmental programs.

OEI's Boston Regional Office prepared this report under the direction of Mark R. Yessian, Ph.D.,
Regional Inspector General and Joyce M. Greenleaf, M.B.A., Assistant Regional Inspector
General. Principal OEI staff included:

BOSTON                                                   HEADQUARTERS

Laura C. McBride, Lead Analyst                         Elise Stein, Program Specialist

Aimee L. Kasenga, Program Analyst               Joseph Rutherford, Program Specialist

Nancy L. London, Program Analyst

Nicola Y. Pinson, Program Analyst





        To obtain copies of this report, please call the Boston Regional Office at (617) 565-1050.
          Reports are also available on the World Wide Web at our home page address:

                                     http://www.dhhs.gov/oig/oei
                      EXECUTIVE                        SUMMARY

PURPOSE

         To assess the effectiveness of the Food and Drug Administration’s (FDA) adverse event
         reporting system for dietary supplements in protecting the American consumer.

BACKGROUND

         Dietary supplements are increasingly popular. Currently about 60 percent of Americans
         take some form of dietary supplement every day without any apparent problems.
         Supplements include substances such as vitamins, minerals, botanicals, and amino acids.
         Although many of these supplements can be beneficial, there are risks associated with
         some. For example, ginkgo biloba may lead to excessive bleeding, vitamin A in high
         dosages during pregnancy may lead to birth defects, and St. John’s Wort may reduce the
         effectiveness of some antiviral drugs. Unlike new prescription and over-the-counter
         drugs, FDA does not have the authority to require supplements to undergo premarket
         approval for safety and efficacy. Instead, it relies mostly on its adverse event reporting
         system to identify safety problems.

FDA’s Adverse Event Reporting System for Dietary Supplements

         FDA’s adverse event reporting system for dietary supplements includes (1) detecting
         adverse events, (2) generating signals of possible public health concerns, (3) assessing
         those signals, and (4) taking appropriate safety actions based on its assessment. An
         adverse event is an incident of illness or injury that may be associated with a product or
         ingredient. With further investigation, the association may or may not be confirmed.
         Reporting adverse events is entirely voluntary, and FDA receives reports from a variety of
         sources including consumers and health professionals.

         When a signal of a possible health problem is generated from the adverse event reporting
         system, FDA assesses whether it is an actual public health problem warranting attention.
         FDA can assess these signals by reviewing scientific literature, consulting with experts,
         reviewing clinical data, conducting its own laboratory tests, and/or commissioning studies.
         If FDA confirms that a public health problem exists it can take a range of safety actions,
         such as issuing warnings to consumers and health professionals, issuing import alerts,
         requesting product recalls, or seizing products.

This Inquiry

         In this report, we evaluate how well FDA’s adverse event reporting system for dietary
         supplements functions as a consumer protection tool. We analyzed data from FDA’s
         database; reviewed FDA laws, regulations, policies, and procedures; reviewed several
         adverse event reports; reviewed relevant literature; and interviewed FDA officials, industry
         representatives, and scientific experts. We did not evaluate the internal

Dietary Supplements: AER System                   i                                    OEI-01-00-00180
         operating procedures of the system.

FINDINGS

FDA’s adverse event reporting system detects relatively few adverse events.

         Adverse event reporting systems typically detect only a small proportion of the events that
         actually occur. This appears to be especially true of FDA’s system for dietary
         supplements. A recent FDA-commissioned study estimated that FDA receives less than 1
         percent of all adverse events associated with dietary supplements. Among the factors that
         may contribute to under-reporting are that many consumers presume supplements to be
         safe, use these products without the supervision of a health care professional, and may be
         unaware that FDA regulates them. FDA’s limited outreach concerning this system
         contributes to this unawareness.

It has difficulty generating signals of possible public health concerns.

         FDA lacks much of the information that is necessary to effectively analyze adverse event
         reports and to generate possible signals of concern. Below we document the lack of
         information by presenting FDA data between 1994-1999.

         Limited medical information. FDA did not receive the medical records for 58 percent
         (464 of 801) of the reports for which it requested them. Only 20 percent (527 of 2,547)
         of adverse events reports received by FDA came from health professionals.

         Limited product information. FDA was unable to determine the ingredients for 32
         percent (1,153 of 3,574) of the products mentioned in adverse event reports. FDA does
         not have the product labels for 77 percent (2,752 of 3,574) of the products mentioned in
         reports. FDA does not have product samples for 69 percent (130 of 188) of the products
         for which it requested them. Product samples are especially helpful because dietary
         supplement ingredients are not standardized.

         Limited manufacturer information. FDA reports that it has received fewer than 10
         adverse event reports directly from manufacturers. FDA was unable to determine the
         manufacturer of dietary supplement products for 32 percent (1,153 of 3,574) of the
         products involved in reports. FDA was unable to determine the city and State for 71
         percent (644 of 904) of the manufacturers.

         Limited information on the dietary supplement consumer. FDA was unable to
         follow-up with 27 percent (214 of 801) of the reports it tagged for follow-up primarily
         because the reports lacked sufficient information to identify the alleged injured party.

         Limited ability to analyze trends. FDA has difficulty analyzing trends of adverse event
         reports because its lacks an adequate computer database for routine analysis and receives
         relatively few reports.



Adverse Event Reporting System for Dietary Supplements   ii                            OEI-01-00-00180
FDA lacks vital information to adequately assess signals of possible public
health concerns generated by the adverse event reporting system.

         In order to assess such signals, FDA must draw upon key information external to the
         system. But FDA faces obstacles in obtaining such information. For a recent case study
         that documents these obstacles see appendix A.

         Limited clinical information. There is some clinical information available on dietary
         supplements and more is becoming available every day. But, the current regulatory
         framework for dietary supplements permits manufacturers to market a supplement without
         premarket safety studies. For this and other reasons, FDA has relatively little clinical
         information on particular products. The law requires manufacturers of certain new dietary
         ingredients to notify FDA 75 days prior to market and include “relevant” safety
         information. However, very few dietary ingredients are subject to this requirement, and
         FDA has issued no guidance on the type of safety information that should be submitted.

         Limited information on consumer use. FDA lacks a mechanism to track the number of
         consumers using a particular supplement. Such information can be helpful to determine
         the incidence of certain adverse events in the user population and thus, the extent of the
         public health problem that it poses.

As a result, FDA rarely takes safety actions related to the adverse event reporting
system.

         Safety actions can be of significant benefit to consumer safety. For example, based on
         FDA’s investigation of adverse event reports, it found products containing plantain were
         contaminated with Digitalis lanata, a plant that can cause heart attacks in certain
         individuals. FDA issued a consumer warning against certain products containing plantain
         and asked supplement manufacturers to voluntarily recall their products contaminated with
         Digitalis lanata.

         But, between January 1994 and June 2000, we were able to document only 32 safety
         actions that FDA took based on the adverse event reporting system—a period when more
         than 100 million people were taking supplements. With limited information to draw upon
         to generate and assess signals, FDA rarely reaches the point of knowing whether taking a
         safety action is warranted.

         Public disclosure of adverse event reports can also be considered a type of safety action.
         FDA uses its website as its main vehicle for disclosure. However, its website has
         significant limitations; for example, it provides no evaluation of the reports, contains
         misleading information, and is rarely updated.

RECOMMENDATIONS

         Our evaluation of FDA’s dietary supplement adverse event reporting system leads us to
         conclude that without further development of the overall regulatory framework for


Adverse Event Reporting System for Dietary Supplements   iii                           OEI-01-00-00180
         dietary supplements, the potential of the system to serve as a consumer safeguard is
         inherently limited. The program simply cannot serve as an adequate safety valve until
         other measures are taken that will allow FDA to generate and confirm signals of possible
         public health concerns.

         Below we offer our recommendations as a blueprint for actions that FDA can take over a
         reasonable period of time. It has already called for some of them in its strategic plan for
         dietary supplements. We recognize that some of our recommendations will call for
         legislative or regulatory changes. We also recognize that resources are limited and that
         some of our recommendations may require additional resources.

RECOMMENDATION 1: Facilitate greater detection of adverse events.

         Require dietary supplement manufacturers to report serious adverse events to FDA
         for some products. FDA should examine what types of products or ingredients should
         fall under this requirement. FDA already requires pharmaceutical manufacturers to report
         adverse events for all prescription and some over-the-counter drugs.

         Contract with Poison Control Centers to obtain their adverse event reports on
         dietary supplements. These centers hold information that may be useful to FDA.
         Reports from Poison Control Centers may provide additional data to help generate signals
         of possible public health concern.

         Inform health professionals and consumers about the adverse event reporting
         system for dietary supplements. The main way FDA can accomplish this is by
         expanding its outreach to health professionals and including information about the safety
         actions it has taken. Other possibilities include requiring manufacturers to provide a toll-
         free number on their product labels or placing FDA’s toll-free number on labels.

RECOMMENDATION 2: Obtain more information on adverse event reports in
order to generate stronger signals of public health concerns.

         Educate health professionals about the importance of including medical information
         in adverse event reports. Without medical information about the alleged injured parties,
         FDA lacks crucial information for determining the likelihood that an adverse event was
         related to the use of a dietary supplement. When FDA conducts outreach it should
         encourage health processionals to obtain permission from their patients to release their
         medical records when appropriate.

         Require dietary supplement manufacturers to register their products with FDA. A
         complete product registry would allow FDA to instantly access a list of all of the
         ingredients in a particular product and determine the product manufacturer’s name as soon
         as it receives an adverse event report.

         Require dietary supplement manufacturers to register with FDA. A registry of
         manufacturers would enable FDA to quickly and easily contact a manufacturer whose
         product was associated with an adverse event to obtain additional information.

Adverse Event Reporting System for Dietary Supplements   iv                             OEI-01-00-00180
         Notify manufacturers when FDA receives a serious adverse event report. Alerting
         manufacturers of adverse events in which their products have been mentioned would give
         FDA the opportunity to obtain more product information from the manufacturer. It
         would also allow manufacturers to reevaluate the safety profile of the product, including
         manufacturing procedures, in a timely manner.

         Emphasize to health professionals and consumers the importance of providing a way
         to identify the alleged injured party. Without this information FDA may be unable to
         gather additional information excluded from the report.

         Develop a new computer database to track and analyze adverse event reports. To
         help identify signals, FDA needs a database that allows for querying by ingredients as well
         as products and types of adverse events.

RECOMMENDATION 3: Obtain vital information to adequately assess signals
generated by the adverse event reporting system.

         Issue guidance on the type of safety information that manufacturers should include
         in the 75-day premarket notification requirement for some new dietary supplement
         ingredients. FDA should take full advantage of its existing authority to obtain as much
         safety information as possible prior to marketing.

         Explore the possibility of a monograph system for dietary supplements that would
         contain safety information on particular ingredients. Monographs are point papers on
         particular ingredients that contain safety and efficacy information. Such a system would
         allow FDA to have in a systematic fashion safety information that it could rely upon to
         help make decisions.

         Collaborate with the National Institutes of Health in setting a research agenda
         addressing safety issues. Another way that FDA can gain clinical information is by
         collaborating with the National Institutes of Health that funds and conducts research
         related to dietary supplements.

         Assist industry and the United State Pharmacopeia in standardizing dietary
         supplement ingredients, particularly botanicals. Standardized ingredients would allow
         FDA to have the confidence that in taking action against unsafe products or ingredients it
         is addressing all the products posing a health risk.

         Expedite the development and implementation of good manufacturing practices for
         dietary supplement manufacturers. Standardized ingredients must be complemented by
         FDA enforcing those standards through good manufacturing practices. These are essential
         for FDA to be assured of the precise contents of each batch of supplements that is
         manufactured.




Adverse Event Reporting System for Dietary Supplements   v                            OEI-01-00-00180
RECOMMENDATION 4: Disclose more useful information to the public about
dietary supplement adverse events.

         FDA should provide more useful data on its website so that consumers can, to some
         extent, evaluate the likelihood that the adverse event was related to the supplement.
         FDA could update the information on its website more regularly. FDA could also
         accomplish this is by providing summary data on the numbers and types of reports
         received by product types or ingredients. Over time, as resources become available it
         could consider indicating the likelihood the event was caused by a product.

COMMENTS

         We received comments on our draft reports from the Food and Drug Administration. We
         also solicited and received comments from three trade associations (Consumer Healthcare
         Products Association, American Herbal Products Association, and the Council for
         Responsible Nutrition) and two public interest organizations (Public Citizen’s Health
         Research Group and the Center for Science in the Public Interest.) See appendix C for the
         comments in their entirety.

         On the basis of these comments we made several changes that are reflected in this final
         report. Some involved minor technical changes, and others involved brief elaborations to
         clarify and add context. In two instances we modified our recommendations to target
         them more effectively and to minimize regulatory burden. We limited the scope of
         mandatory reporting of adverse event reports to events that are both serious in nature and
         fall under a certain subset of products to be determined by FDA. Similarly, instead of
         calling for FDA to notify manufacturers of all adverse event reports it receives, we called
         for it to notify the manufacturers of serious reports only.

Food and Drug Administration

         FDA reported that our findings were a fair assessment of the challenges it faces. It also
         agreed with the majority of our recommendations. As part of its comments, it categorized
         our recommendations into three areas: (1) tasks that it can currently accomplish, (2) tasks
         that require additional resources, and (3) tasks that require both legislative changes and
         additional resources. FDA documented the progress it has made in each of these
         categories. FDA indicated that the major difficulty it faces to improving the system is a
         lack of adequate resources.

         FDA is making progress toward improving the system along the lines we call for in our
         report. Many of our recommendations are already included among FDA’s top priorities
         for the year as well as in its 10-year strategic plan. We also encourage FDA to seek the
         authority it needs to require manufacturer and product registration and mandatory
         manufacturer reporting of adverse events.




Adverse Event Reporting System for Dietary Supplements   vi                            OEI-01-00-00180
Trade Associations

         The three trade associations provided some support for our recommendations, but for the
         most part, they were highly critical of both our findings and recommendations. While we
         disagree with the thrust of their comments, they help sharpen the issues that need to be
         addressed as part of any reform.

         One of their major critiques was that we chose not to evaluate the internal operating
         procedures of FDA’s adverse event reporting system, thereby leaving us with little basis
         for our broader recommendations. We agree that there could be value to a procedural
         review. FDA should be doing everything it can to make sure the current system operates
         as effectively as it possibly can. However, we offer strong evidence that the current
         system is fundamentally flawed and cannot provide an adequate consumer safeguard
         unless FDA is given more tools to do the job.

         Another significant critique was that we failed to view dietary supplements in the context
         of a food-related system. This failure, they claim, led us to call for more extensive
         oversight, similar to that for prescription drugs. Our inquiry focused on how the current
         system was functioning and made us acutely aware of just how little information FDA has
         available to determine whether adverse events about dietary supplements (however
         characterized) present danger signs that should be addressed. Without an improved
         capacity to obtain such information, FDA’s adverse event reporting system will continue
         to fall short of its potential.

         Still another critique was that our report reflects a negative view of dietary supplements
         and fails to recognize their role as self-care products that so many consumers value. We
         regret any implication of such a negative view. If the kind of recommendations we call for
         are enacted, we suggest that consumers would have more extensive and useful information
         available to them on these self-care products and could have more confidence that an
         adverse event reporting system was providing them with a valuable measure of protection.

Public Interest Organizations

         The two public interest organizations strongly supported our report. Their main critique
         was that we did not go far enough. One called for legislative changes that, over time,
         would significantly enhance FDA authorities. The other called for FDA to support a
         systematic study of dietary supplement safety and efficacy. While our evidence did not
         allow us to go as far as these organizations would like, it did lead us to emphasize that a
         comprehensive set of changes must be carried out if the adverse event reporting system is
         to provide an adequate consumer safety valve.




Adverse Event Reporting System for Dietary Supplements   vii                           OEI-01-00-00180
                          TABLE OF CONTENTS
                                                                                                                              PAGE


EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


PRIMER ON FDA’S ADVERSE EVENT REPORTING SYSTEM . . . . . . . . . . . . . . . . . . . 4


THE IMPORTANCE OF THE SYSTEM . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5


FINDINGS


          Few adverse events detected . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9


          Difficulty generating signals of public health concern . . . . . . . . . . . . . . . . . . . . . . . . . . 11


          Lacks vital information to assess signals . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15


          Difficulty taking action . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16


RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19


COMMENTS ON THE DRAFT REPORT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25


APPENDICES


          A: FDA’s experiences in overseeing ephedrine alkaloids . . . . . . . . . . . . . . . . . . . . . . . 28


          B: FDA’s safety actions . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 33


          C: Comments on the draft report . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 36


          D: Endnotes . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 93





Adverse Event Reporting System for Dietary Supplements           viii                                                OEI-01-00-00180
                                    INTRODUCTION

PURPOSE

         To assess the effectiveness of the Food and Drug Administration’s (FDA) adverse event
         reporting system for dietary supplements in protecting the American consumer.

BACKGROUND

         Dietary supplements are increasingly popular. Currently about 60 percent of Americans
         take some form of dietary supplement every day without any apparent problems. Dietary
         supplements include products such as vitamins, minerals, botanicals (herbal products), and
         amino acids.1 Healthy consumers use supplements to increase their energy, boost their
         immune systems, prevent memory loss, build muscle mass, or lose weight. Ill people turn
         to supplements as an alternative to traditional treatments, to complement prescription
         drugs, to save money needed to buy more expensive prescription drugs, or in general to
         promote good health. Research studies suggest some products are beneficial. For
         example, glucosamine and chondroitin may relieve symptoms of osteoarthritis.2 Saw
         palmetto may improve the symptoms for men with benign prostatic hyperplasia.3 Folic
         acid may reduce the risk of neural tube defects in newborns.4

         Although many of these supplements can be beneficial, risks are associated with some.
         For example, ginkgo biloba may lead to excessive bleeding, high dosages of vitamin A
         during pregnancy may lead to birth defects, and St. John’s Wort may compromise the
         effectiveness of some antiviral drugs. Unlike new prescription and over-the-counter
         drugs, the law does not require supplements to undergo premarket approval for safety and
         efficacy. Instead, FDA relies mainly on its adverse event reporting system to identify
         safety problems.

FDA’s Adverse Event System for Dietary Supplements

         In 1993 FDA created a system to collect and review adverse event reports on
         supplements. An adverse event is an incident of illness or injury that may be associated
         with a product or ingredient. FDA’s adverse event reporting system for dietary
         supplements includes (1) detecting adverse events, (2) generating signals of possible public
         health concerns, (3) assessing those signals, and (4) taking appropriate safety actions
         based on its assessment. The system for dietary supplements, according to the director of
         the Center for Food Safety and Applied Nutrition, “provides an essential monitoring tool
         for identifying potential serious public health issues that may be associated with the use of
         a particular product or type of product already in the marketplace that needs to be
         investigated and critically evaluated.”5

         Reporting adverse events associated with dietary supplements to FDA is entirely
         voluntary. FDA receives adverse event reports on dietary supplements from consumers,
         health professionals, and manufacturers through a variety of sources, including State


Adverse Event Reporting System for Dietary Supplements   1                             OEI-01-00-00180
         health departments, Poison Control Centers, direct communication with individuals, and
         MedWatch, a computerized reporting system used to monitor a variety of FDA-regulated
         products. Reported events range in severity from nausea and dizziness to cardiac arrest or
         death.

         FDA relies on the adverse event reporting system to generate signals of possible public
         health concerns. When signals are generated, FDA still needs to assess the signal to
         determine if a public health problem exists. FDA can investigate the signal in many ways
         including examining clinical information and/or conducting laboratory tests. If the signal is
         confirmed, FDA can take a variety of actions to protect the public depending on the
         seriousness of the problem. FDA safety actions range from issuing warnings to consumers
         and health professionals to seizing products. FDA can also take civil and enforcement
         actions. (See the Primer on page 4 for additional information on the system.)

Dietary Supplement Health and Education Act

         In 1994, Congress passed the Dietary Supplement Health and Education Act based on the
         premise that “legislative action that protects the right of access of consumers to safe
         dietary supplements is necessary to promote wellness.”6 The Act defined the term “dietary
         supplement” and legitimized it as a category of health care products. It also created a new
         regulatory framework for dietary supplements while assuring consumers broad access.

         The Act generally classifies dietary supplements as a category of food. As such, they fall
         under the authority of the FDA, in its Center for Food Safety and Applied Nutrition. FDA
         has authority for dietary supplements for (1) product safety, (2) product labeling including
         claims, (3) notification of new dietary ingredients, and (4) good manufacturing practices.
         FDA has issued over 25 Federal Register notices regarding dietary supplements, mostly
         focused on labeling and product claims. Although the Act is grounded on the presumption
         that dietary supplements are safe, it does provide FDA with the authority to take action
         against a dietary supplement or ingredient that “presents a significant or unreasonable risk
         of illness or injury.”7

Our Inquiry

         FDA’s adverse event reporting system for dietary supplements is a particularly important
         safety valve for consumers due to the lack of other complementary oversight systems,
         such as premarket approval, and the increased popularity of dietary supplements. In this
         report, we examine how well the system (1) detects adverse events, (2) generates signals
         of public health concerns, (3) assesses these signals, and when necessary, (4) takes
         appropriate actions to protect consumers. We do not evaluate the safety of dietary
         supplements themselves, nor do we evaluate the adequacy of other FDA activities related
         to dietary supplements, such as labeling requirements and product claims.8 Finally, we do
         not evaluate the internal operating procedures of the system.




Adverse Event Reporting System for Dietary Supplements   2                             OEI-01-00-00180
         We analyzed data from FDA; reviewed FDA laws, regulations, policies, and procedures;
         reviewed several adverse event reports; examined the product labels and claims for 30
         dietary supplements; reviewed relevant literature; and interviewed relevant FDA officials,
         industry representatives, and scientific experts.

         We conducted this inspection in accordance with the Quality Standards for Inspections
         issued by the President’s Council on Integrity and Efficiency.




Adverse Event Reporting System for Dietary Supplements   3                            OEI-01-00-00180
 PRIMER ON FDA’S ADVERSE EVENT
       REPORTING SYSTEM


DETECTING ADVERSE EVENTS

   C   FDA receives adverse event reports through a variety of reporting mechanisms: MedWatch, Poison Control
       Centers, FDA District Offices, State Health Departments, and direct contact with individuals.
   C   Consumers, health professionals, and manufacturers are the three categories of reporters.


GENERATING SIGNALS OF POSSIBLE PUBLIC HEALTH CONCERN

   C FDA enters the adverse event report into its database and forwards it to its clinical staff for review.
   C	 FDA determines if follow-up to the report is needed to obtain more information based on whether FDA
      considers the event to be a “high concern,” “serious,” or “clinically significant.”9 If FDA does not request
      follow-up, it closes the file. In either case, FDA maintains the report in the database to be used for later
      analysis.
   C	 When FDA requests follow-up of an individual report, it may request one or more of the following: product
      label, product sample, consumer’s medical records, and information about how much was consumed and for
      how long.
   C	 The following criteria must be met for follow-up: adequate contact information of the reporter must exist,
      and the injured party must be identified in some way.
   C	 After follow-up, FDA reviews the information collected and determines whether it has enough information
      to evaluate the report. If it does, FDA makes an evaluation and closes the file. FDA maintains the report in
      a database. If FDA lacks enough information it may request information again. In cases where FDA
      cannot obtain the information the file is closed.
   C	 Adverse event reports in and of themselves do not lead to conclusive assessments of the safety of a product
      or ingredient. Rather, FDA uses adverse event reports to generate signals of possible public health
      concerns. Signals are most often generated when FDA identifies a trend, although one well-documented
      report may be enough to create a signal.


ASSESSING SIGNALS

   C   FDA relies on its own evaluation as well as outside sources such as medical literature, clinical studies, and
       expert advisors to evaluate whether the signal signifies a public health problem warranting FDA action.
   C   FDA may also conduct its own laboratory testing of product samples to help assess and confirm signals.


TAKING SAFETY ACTIONS

   C	 Once FDA has confirmed a signal, it can take a variety of actions to protect the public from risks associated
      with dietary supplements. These actions vary depending on the seriousness of the situation. FDA can issue
      warnings to consumers or health professionals, require more information on product labels, request a recall
      of the product, or seize the product.
   C Depending on the action chosen, FDA may have to demonstrate that the product is adulterated, misbranded,
      or an unapproved new drug.
   C FDA also publicly discloses some elements of its database on its public website.




Adverse Event Reporting System for Dietary Supplements    4                                          OEI-01-00-00180
                 IMPORTANCE OF THE SYSTEM
         Adverse event systems are typically used as ancillary risk identification systems. Below
         we present several reasons specific to dietary supplements that underscore the need for
         FDA’s system.

Unique Role of the Adverse Event Reporting System for Dietary Supplements

         Adverse event reports in and of themselves typically cannot generate conclusive evidence
         about the safety of a product or ingredient. Rather, the system can generate signals of
         possible public health problems. FDA typically uncovers signals by analyzing trends of the
         reports, although one well-documented report can generate a signal as well. FDA must
         assess these signals to confirm if in fact a public health problem exists related to a product
         or an ingredient. In assessing a signal, it relies on a variety of sources, such as clinical
         research, scientific literature, and/or laboratory testing.

         In the case of dietary supplements, FDA has relatively little clinical data on ingredients and
         products. Thus, FDA is inherently limited in its ability to investigate signals of public
         health problems generated by the system. In contrast, manufacturers of new prescription
         drugs and over-the-counter drugs are required to submit safety data to FDA on their
         products prior to market (see table on the following page).

         Furthermore, unlike manufacturers of new prescription and over-the-counter drugs who
         shoulder the burden of demonstrating the safety of their products prior to market, the
         burden is placed on FDA to prove that the supplement is unsafe or adulterated after the
         product is already on the market. And in some cases similar to other FDA products, FDA
         may have to prove that the product is unsafe when used as recommended by the
         manufacturer or suggested in the labeling; if the consumer suffers an adverse reaction after
         using a higher dosage than recommended or suggested in the labeling, the supplement may
         still be considered safe.10

         The law requires supplement manufacturers to notify FDA 75 days prior to marketing
         new dietary supplement ingredients. However, this mechanism is only minimally effective
         at protecting consumers because so few ingredients are subject to this requirement. The
         law defines a “new” dietary ingredient as a substance that was not “present in the food
         supply as an article of food in a form in which the food has not been chemically altered” in
         the United States before October 15, 1994.11 But, because FDA lacks documentation as
         to which dietary ingredients were marketed before 1994 and because there is a wide range
         of articles used for food, it is difficult for FDA to determine whether a dietary ingredient is
         subject to the 75-day notice requirement. To date, FDA has received 97 premarket
         notifications, covering 114 ingredients, 102 of which were new dietary ingredients (the
         remaining products/ingredients were found to be drugs or biologics).

         Even when FDA receives a 75-day notification, FDA may disagree with the
         manufacturer’s assertion with respect to the safety of the ingredient, but FDA bears the



Adverse Event Reporting System for Dietary Supplements   5                               OEI-01-00-00180
          burden of showing that the data are inadequate to provide reasonable assurance that the
         ingredient does not present a significant or unreasonable risk of illness if an enforcement
         action becomes necessary.12

  A Comparison of FDA’s Regulatory Mechanisms to Help Ensure the Safety of Products

    Product       Product           Manufac.       Premarke       Specific Good   Voluntary    Mandatory         Safety-
     Class        Registration     Registration        t            Manufac.      Postmarket    Manufac.        Related
                                                   Approval         Practices      Adverse     Reporting        Labeling
                                                      of                             Event     of Adverse     Requirements
                                                   Products                       Reporting       Event
                                                                                    System     Reporting

 Dietary                                                             under           U                            some
 Supplement                                                       development

 Conventional                                                          U             U*                           some
 Foods

 Food                                                    U             U             U           some              U
 Additive

 Monograph              U               U                              U             U                             U
 Drugs**

 New Drug               U               U                U             U             U            U                U
 Application
 Drugs***

 Infant                 U               U                          proposed in       U            U                U
 Formula                                                              1996

 *FDA does not collect or evaluate all adverse events on all conventional food. Excluded in this system are the
 investigations FDA conducts following food-borne illness outbreaks.
 **Monograph drugs are typically over-the-counter drugs that must adhere to specific safety standards set out for each
 ingredient and do not undergo clinical testing.
 ***NDA is a new drug application that all prescription drugs and some over-the-counter drugs must submit to FDA prior to
 market. This application must include data that demonstrates the safety and efficacy of the product.


Popularity of Dietary Supplements

         Since the early 1990s, consumer demand for supplements has sky-rocketed. Estimated
         sales of dietary supplements increased nearly 100 percent between 1992 and 1996, from
         $3.7 billion to $6.5 billion.13 In 1999, the industry grossed an estimated $15.4 billion.14
         Today, dietary supplements are widely available in grocery stores, retail pharmacies, health
         food stores, and on the Internet. According to a study commissioned by FDA, over 1,500
         manufacturers produce dietary supplements.15

         Currently, over 60 percent of the American population uses some form of dietary
         supplement every day.16 Vitamin and mineral supplements are the most commonly used.17
         An estimated 22.8 million consumers use herbal products in lieu of prescription medicine
         and 30 million use herbal products instead of over-the-counter drugs.18 The elderly are
         one of the largest consumer populations.19 In the words of the FDA



Adverse Event Reporting System for Dietary Supplements        6                                             OEI-01-00-00180
         commissioner, “A small but disturbing number of these products have a potential for harm
         or bear unsupported claims. In this context, a rapidly expanding industry and a changing
         demographic of consumers eager to manage their own health care needs provide a
         significant regulatory challenge.”20

Associated Risks With Some Dietary Supplements

         Many consumers use dietary supplements without apparent problems. However, risks do
         exist. In a recent survey, 12 percent of consumers of herbal products reported that they
         had experienced side effects.21 Possible health problems associated with dietary
         supplements fall into three major categories: direct toxicity, interactions with other drugs
         or supplements, and contamination of products. Below we describe some recent study
         findings.

         Direct Toxicity. Several clinical studies have identified serious side effects with dietary
         supplements. For example, high dosages of vitamin A taken during pregnancy are
         associated with higher rates of cranial neural crest birth defects.22 Ginkgo biloba, a
         popular supplement taken to enhance memory, has been found to be a blood thinner. It
         can lead to excessive bleeding and, in some cases, stroke.23

         Supplement-Drug Interactions. A recent survey found that about 31 percent of
         respondents reported taking herbal products in conjunction with prescription drugs and 30
         percent took supplements with over-the-counter drugs.24 Several recent studies have
         identified potentially dangerous interactions between drugs and herbs that can include
         synergistic effects, poisoning, or inactivation of one of the substances. In one recent
         study, researchers at the National Institutes of Health demonstrated that St. John’s Wort,
         typically used to enhance mood, could significantly compromise the effectiveness of
         antiviral drugs often prescribed to treat HIV infection.25

         Contamination of Products. In 1989, FDA requested an urgent recall of products
         containing L-tryptophan, most often used as an aid for sleep. The use of L-tryptophan
         was associated with an elevation of eosinophils, a particular type of white blood cell, and
         severe muscle pain, a syndrome referred to as the eosinophilia-mylagia syndrome. These
         products were associated with over 1,500 cases of adverse events reported to the Center
         for Disease Control and Prevention. In 1997, FDA found that certain dietary supplement
         products were contaminated with Digitalis lanata, a plant that contains powerful heart
         stimulants and under certain circumstances may lead to cardiac arrest.26 The California
         Department of Health reported that 32 percent of 260 Asian herbal products selected off
         the shelves of California retail stores were contaminated with lead, arsenic, or undeclared
         pharmaceuticals.27 Several reports have identified herbal products containing prescription
         drugs used to treat diabetes.28 In another case, a large supplement manufacturer was
         found guilty of defrauding the government by adding synthetic ingredients to a product
         labeled “all natural” and thus, misbranding the product.29




Adverse Event Reporting System for Dietary Supplements   7                              OEI-01-00-00180
Concerns About Dietary Supplement Product Labels

         The law prevents manufacturers from marketing dietary supplement products with labeling
         that is false or misleading. Labeling that omits a material fact is considered misleading
         under the law. Many products that lack warnings may be misbranded under this provision,
         and FDA may not be adequately enforcing this requirement. For example, we purchased
         three different brands of ginkgo biloba, a supplement that can act as an anticoagulant.
         Product A had no warning. Product B warned, “if you are using MAO inhibitors consult
         your healthcare practitioner prior to using this product.” Product C warned, “if you are
         pregnant or breast-feeding, taking blood-thinning medications or regularly taking aspirin,
         consult your health care professional before using this product.” Some industry groups
         have established standard warnings for certain products, but manufacturers’ use of these
         standard warnings is voluntary. FDA has issued a regulation requiring a warning label on
         dietary supplement that contain iron, but otherwise generally has not prescribed warnings
         or listings of side effects for particular ingredients or products.

         Even when consumers are aware of the risks associated with certain dietary supplement
         ingredients, the ingredients or the active constituent can be listed under a variety of names
         that may be unfamiliar to the consumer. For example, products containing ephedrine
         alkaloids, a category of ingredients that act as stimulants, have several names. In our
         review of botanical literature we found 25 common names for botanicals containing
         ephedrine alkaloids including Ma Huang, Ephedra, Chinese joint-fir, Country Mallow, and
         Brigham’s Tea.30 FDA labeling regulations for dietary supplements require that
         ingredients be listed under their Latin binomial names except when they are available in the
         Herbs of Commerce.31 FDA requires that manufacturers use common names consistent
         with the names standardized in the Herbs of Commerce to help limit the number of
         common names in use. However, even the Herbs of Commerce contains multiple
         common names for plants that contain ephedrine alkaloids.32




Adverse Event Reporting System for Dietary Supplements   8                             OEI-01-00-00180
                                               FINDINGS

FDA’s Adverse Event Reporting System Detects Relatively Few
Adverse Events.

         Adverse event systems typically detect only a small proportion of events that actually
         occur. They are passive systems that depend on someone linking an adverse event with
         the use of a product and then reporting that event. FDA’s adverse event reporting system
         for dietary supplements is no exception. A recent study commissioned by FDA estimated
         that the adverse event reports FDA receives represent less than 1 percent of all of the
         adverse events associated with dietary supplements.33 We found that FDA’s dietary
         supplement adverse event
         system received 2,547 adverse
         event reports related to                 Dietary Supplement Adverse Event Reports
         supplements from 1994 through           Received by FDA and Poison Control Centers
         1999—a period when more than
         100 million people were taking
         supplements. A survey found
         that 12 percent (11.9 million) of
         all consumers using herbal
         products reported that they have
         experienced side effects or
         adverse reactions.34

         Comparison to other adverse
         event reporting systems. We
         recognize that no clear standard
         exists on how many reports
         FDA should receive. While not
         directly comparable, other
         systems appear to be receiving
         more reports. Most notably,
                                                   Source: FDA’s Adverse Event Reporting Database
         Poison Control Centers—a                  and Poison Control Centers’ Data
         network of sites, predominantly
         hospitals and academic health
         centers, that respond to consumer calls about problems with products—received
         significantly more dietary supplement adverse event reports than FDA for the past several
         years. For example, in 1999 these Centers received 13,000 reports related to dietary
         supplements while FDA received 460 reports (see figure).35,36 Similarly, since 1993, the
         Texas State Department of Health has received 1,400 reports involving dietary
         supplements; thus, a single State received more than half the number of reports that FDA
         received during that same time period.37




Adverse Event Reporting System for Dietary Supplements   9                           OEI-01-00-00180
         Manufacturers also have information on adverse events that they do not share with FDA.
         Dietary supplements manufacturers are not legally required to report adverse events. In
         one legal proceeding, the manufacturer initially reported that it had no adverse event
         reports, but later released hundreds of “refund requests” that detailed many adverse
         events.38

         Certain characteristics of dietary supplements may contribute to under-reporting.
         Dietary supplements include natural ingredients and are self-care products. These two
         factors may minimize a consumer’s readiness to link an adverse event with a dietary
         supplement product—the first step in the reporting process.

         Presumed safety. The presumed safety of dietary supplements may limit consumers’
         inclination to link an adverse event with a supplement product. Many consumers believe
         that, due to the natural ingredients contained in dietary supplements, the products are
         inherently safe. Congress, in establishing the current dietary supplement regulatory
         system, stated, “dietary supplements are safe within a broad range of intake, and safety
         problems with the supplements are relatively rare.”39

         Self-Care products. Another factor that may contribute to under-reporting of supplement
         adverse events is that they are self-care products. In some instances, consumers may turn
         to supplements instead of over-the-counter medications, despite the fact that most dietary
         supplements are intended to “supplement the diet” and cannot explicitly claim to affect
         disease.40 Consumers often use supplements without guidance from, or even the
         knowledge of, their physicians. Health professionals are often unaware that their patients
         are taking dietary supplements. They may not ask their patients whether they are taking a
         supplement and even when they do, patients may fail to inform them. A recent study
         found that 7 in 10 surgery patients who were taking herbal supplements failed to tell their
         doctors when asked.41 Thus, health professionals may be unable to link a patient’s adverse
         event, should one arise, with supplement use.

         Perceived lack of Federal involvement. Another potential cause of under-reporting to
         FDA’s dietary supplement adverse event system is that the required disclaimer for specific
         types of dietary supplement claims permitted without prior authorization may be
         misinterpreted to mean that FDA has no oversight over dietary supplements. The required
         disclaimer, following a product’s claim states, “this statement has not been evaluated by
         the Food and Drug Administration. This product is not intended to diagnose, treat, cure
         or prevent any disease.” In fact a recent survey showed that 50 percent of Americans
         think the Federal government does not regulate supplements and 16 percent were
         uncertain.42 Therefore, consumers may not think that FDA is the appropriate body to
         which to report.

         FDA conducts little outreach. While FDA does provide information on adverse event
         reporting for dietary supplements on its website, many consumers may be unaware of this.
         FDA has not conducted targeted outreach to health care professionals encouraging
         physicians and alternative health care providers to ask questions about supplements, nor

Adverse Event Reporting System for Dietary Supplements   10                           OEI-01-00-00180
         has it conducted public awareness campaigns where consumers purchase supplements. In
         recent years, FDA has made broad efforts to inform health professionals about reporting
         adverse events associated with FDA-regulated products through its Medwatch system but
         this had done little to help counteract under-reporting of dietary supplement adverse
         events.


FDA’s Adverse Event Reporting System Has Difficulty Generating
Signals of Possible Public Health Concerns.

         FDA’s adverse event reporting system for dietary supplements generates signals of
         possible public health risks. As is the case for any database, if the data coming in are poor
         the analysis coming out will also be poor. Below we present the key types of information
         that a system needs in order to generate strong signals and to assess the signals. We will
         discuss the first four elements with regard to generating signals and the last two in the next
         section about assessing signals. Where appropriate, we draw on our analysis of data from
         FDA’s adverse event reporting database.43 Unless otherwise stated, the data are from the
         period 1994-1999.

                   Key Information For An Adverse Event Reporting System
      Element                                                    Description

 Medical                  Information such as laboratory tests, medical diagnosis, medical history, preexisting
 Information              conditions, dose, frequency of use, and concurrent medications assist clinical staff in
                          evaluating whether the product could have caused the adverse event.

 Product                  FDA needs to know the identities and concentrations of ingredients contained in the
 Information              product to determine which ingredient may have caused the adverse event. It is also
                          valuable for FDA to have some information about the product’s safety, recommended
                          dosing, claims, and the product’s label.

 Manufacturer             Information such as address and contact person help FDA contact manufacturers to obtain
 Information              additional information. Often manufacturers have more clinical data and information
                          that are not readily available to FDA. Also, manufacturers could provide FDA with
                          product samples.

 Contact                  Information on the consumer of the dietary supplement is important in order to conduct
 Information on the       follow up. A consumer can be identified through a variety of mechanisms that still
 Consumer                 maintain confidentiality.

 Clinical                 Information on the types of experiences in similar populations or in the past provide
 Information              contextual information that could help FDA triage reports. This information can be
                          obtained from large scale clinical trials, small research studies, and epidemiological
                          studies.

 Trend Analysis           A database with the capacity to conduct statistical analysis must be available and FDA
                          needs to receive enough reports to conduct meaningful trend analyses.




Adverse Event Reporting System for Dietary Supplements     11                                          OEI-01-00-00180
         Limited medical information. FDA could not obtain the medical records for 58 percent
         (464 of 801) of the reports it followed up on. To obtain medical records, FDA first must
         obtain the permission of the alleged injured party. However, FDA told us that it often has
         difficulty locating or reaching consumers. FDA may need to make repeated phone calls
         over weeks before contacting the consumer and securing access to medical information.
         And sometimes consumers refuse to release their medical records to FDA out of concern
         for their privacy. According to the General Accounting Office, FDA’s credibility in
         attempting to restrict the sale and use of dietary supplements containing ephedrine
         alkaloids was undermined, in part, because FDA lacked sufficient medical records to
         establish a causal relationship between these supplements and the reported adverse
         events.44

         At least half of the reports in FDA’s database came from consumers.45 Consumers
         generally cannot provide as much medical detail or expertise as health professionals and
         therefore consumer reports tend to be less useful than those given by health
         professionals.46 Because supplements are generally self-care products, it is not surprising
         that FDA receives the majority of supplement adverse event reports from consumers.

         Twenty percent (527 of 2,547) of adverse events reports received by FDA came from
         health professionals. Physicians and pharmacists are often in the best position to provide
         critical medical information as well as to assist FDA in determining the relationship
         between the product and the event.

         Limited product information. FDA was unable to determine the ingredients for 32
         percent (1,153 of 3,574) of the products mentioned in adverse event reports. Dietary
         supplement manufacturers do not have to register their products with the FDA, in contrast
         to drug manufacturers. Therefore, FDA lacks a list of supplement products and their
         ingredients as a quick, easy reference when it receives a report. In addition, because
         dietary supplement manufacturers are not required to prove the safety of their products
         prior to marketing them, FDA generally has relatively little information about the safety of
         that particular product when it receives an adverse event report.

         FDA lacks product labels for 77 percent (2,752 of 3,574) of the products associated with
         reports. In order to determine the ingredients of dietary supplements, FDA often depends
         on obtaining a copy of the product label. FDA officials told us that it is important that
         they obtain a photo of the actual label from the product consumed by the alleged injured
         party because dietary supplements sold under the same name often vary in the amount and
         type of ingredients they contain. For this reason, FDA cannot always assume that the
         ingredients in a product that it locates are the same ingredients contained in the identically
         named product consumed by the alleged injured party. In fact, we found a product with
         the same name and packaging in three different locations, yet each product listed different
         ingredients. Furthermore, dietary supplement manufacturers can claim “proprietary
         blends” and choose to exclude the actual quantities of particular ingredients on the labels
         of dietary supplements.47



Adverse Event Reporting System for Dietary Supplements   12                              OEI-01-00-00180
         FDA lacks product samples for 69 percent (130 of 188) of the products for which samples
         were requested. Not only is it difficult for FDA to locate supplement consumers, but FDA
         also finds that supplement consumers often cannot or will not provide a product sample.
         Consumers may have discarded the remaining product, may want to hold on to it pending
         legal action, or may have sent it back to the manufacturer for a refund.
         Even when FDA has information about the ingredients contained in the consumed
         product, as stated on the label, a sample might need to be tested in order to determine the
         actual ingredients or the amount of each ingredient in the dose. Several recent studies
         highlighted the wide variation in the quality of supplement products.48 One found that
         products contained varying amounts, ranging from 0 to 150 percent, of the labeled
         concentration of ingredients.49

         Another reason why FDA has difficulty determining the contents of dietary supplements is
         that it has not yet established good manufacturing practices for supplements, regulations
         on processes for ensuring ingredient quality and quantity. Although the Dietary
         Supplement Health and Education Act granted FDA the authority to establish good
         manufacturing practices for dietary supplements, it has not yet issued final regulations.50
         Without them, FDA lacks the explicit authority to examine manufacturer files that contain
         important information on how the product was made.

         Limited manufacturer information. FDA receives few reports from manufacturers.
         Although we cannot confirm the number of reports FDA has received from manufacturers
         from FDA’s database, FDA officials indicated that they have received fewer than 10
         reports from manufacturers since 1993. Supplement manufacturers are not legally
         required to report adverse events. In contrast, prescription drug manufacturers are legally
         required to report adverse events as well as have a system in place to evaluate them.51
         Thus, in 1999, FDA’s Center for Drug Evaluation and Research, received 90 percent of its
         280,000 adverse event reports for drugs and biologics from the manufacturers of those
         products. Pharmaceutical manufacturers must also do the investigative work that FDA
         sometimes does for dietary supplement reports.

         FDA could not determine the identity of the manufacturer for 32 percent (1,153 of 3,574)
         of the products involved in the reports. FDA does not know the city and State where the
         manufacturer is located for 71 percent (644 of 904) of the manufacturers in its database.
         FDA does not routinely contact the supplement manufacturer when it receives an adverse
         event report on its product. One of the reasons FDA gives for not contacting
         manufacturers is that it cannot locate many of them. Manufacturers need to include only
         their name, city, and State on a product label if their phone number is listed in their local
         directory.52 If their phone numbers are not listed in the local directory, they must include
         their phone number on the label. However, FDA reports that dietary supplement
         companies have often moved from the addresses listed on the labels or exclude required
         information from their labels. In one instance, FDA received two reports of comas
         associated with a product, but when field inspectors tried to track down the manufacturer,
         they found a post office box belonging to an owner who had since moved and closed the



Adverse Event Reporting System for Dietary Supplements   13                             OEI-01-00-00180
         account. FDA was only able to locate the manufacturer after receiving more reports of
         adverse events and conducting further investigations.

         Another difficulty in tracking manufacturers is that many supplements are sold through
         multi-level organizations.53 In such a case, the consumer may know who the distributor is,
         but not the manufacturer. Distributors can be several layers removed from the
         manufacturer, making it increasingly difficult to track the source of the product. One
         inspector told us that he had resorted to searching State tax records to locate the
         manufacturer associated with a certain product.

         On the other hand, some manufacturers have complained about not learning of adverse
         event reports involving their products until the media contacted them after obtaining the
         report from FDA’s website. Unlike drug manufacturers, dietary supplement
         manufacturers are not required to register with FDA. Without such a database, FDA
         cannot easily contact the manufacturers and notify them that it received a report.

         Limited contact information on the dietary supplement consumer. FDA could not
         follow-up with 27 percent (214 of 801) of the reports it tagged for follow-up. The
         primary reason is lack of enough contact information or some type of identifier of the
         alleged injured party to enable follow-up. Reporters may be reluctant to provide such
         information out of concern for privacy.

         Limited ability to analyze trends. FDA has difficulty tracking and analyzing adverse
         event reports for three main reasons. First, FDA receives so few reports that it is difficult
         to conduct rigorous statistical analysis of them. As we have already pointed out, FDA
         received only 2,547 adverse event reports between 1994-1999.

         Second, report quality is poor. As we have shown throughout the report, FDA is missing
         key information even after conducting follow-up. Missing information further weakens
         FDA’s analysis.

         Third, FDA has an inadequate computer database to track adverse event reports. The
         existing database emerged from FDA’s need to log the reports that it receives. FDA did
         not design the database to analyze trends. For example, many of the data fields are empty
         in the majority of reports because the fields were created recently and the staff has not had
         the time to enter data retrospectively from its paper files. The database lacks automatic
         data edits that would remove common data entry errors such as misspellings or illogical
         entries, making it difficult to query for a specific word or entry. A number of the fields are
         defined poorly, complicating analysis. For example, all the ingredients for a product are
         listed in the same data field making it difficult to search for trends by a specific ingredient.
         It is also difficult to analyze across reports when a report involves more than one product.




Adverse Event Reporting System for Dietary Supplements   14                               OEI-01-00-00180
FDA Lacks Vital Information to Adequately Assess Signals of Possible
Public Health Concerns Generated by the Adverse Event Reporting
System.

         Limited clinical information. One key tool that FDA lacks in assessing signals is
         adequate clinical information. Information on the types of experiences in similar
         populations or in the past provide contextual information that could help FDA assess
         signals. This information can sometimes be obtained from large scale clinical trials, small
         research studies, and epidemiological studies. However, the current regulatory framework
         for dietary supplements does not require manufacturers to conduct these studies pre- or
         post-marketing. For this and other reasons, FDA has relatively little clinical information
         on particular products.

         Some manufacturers and researchers have conducted such studies, but these studies by no
         means cover all dietary supplement products or ingredients. And the limited scientific
         literature on dietary supplements that does exist focuses almost exclusively on individual
         ingredients, such as certain botanicals or minerals. However, dietary supplements tend to
         contain multiple ingredients.54

         FDA does obtain some clinical information from its 75-day premarket notification
         requirements. But this applies only to dietary ingredients that were not marketed in the
         United States before October 15, 1994, and that have not been in the food supply as
         articles used as food without chemical alteration. To date, FDA has received 97
         premarket notifications, covering 114 ingredients, 102 of which were new dietary
         ingredients (the remaining products/ingredients were found to be drugs or biologics).

         FDA has some clinical information from the history of use. However, history of use
         information can be difficult to interpret as the information may be difficult to verify.

         Limited information on consumer use. The size of the consumer population and the
         dosage taken by consumers helps FDA estimate the size of the potential threat to public
         health. Although millions of supplements are sold in hundreds of forms in thousands of
         locations, little evidence is available on how many doses of a particular product or
         ingredient are consumed. This dearth of information contrasts with the available
         information for prescription drugs for which the number of filled prescriptions is tracked
         and tabulated. Without consumer use information, it is difficult for FDA to know what
         the denominator is when evaluating the adverse event reports it receives and thus, the
         incidence of adverse events relating to a particular product or ingredient within the user
         population. This makes it difficult for FDA to determine the magnitude of safety
         concerns.

         In appendix A we present a case study involving ephedrine alkaloids that illustrates the
         information FDA lacks to assess signals of possible public health concerns generated by
         the adverse event reporting system.

Adverse Event Reporting System for Dietary Supplements   15                              OEI-01-00-00180
As a Result, FDA Rarely Takes Safety Actions Related to the Adverse
Event Reporting System.

         With limited information to draw upon to generate and assess signals, it is not surprising
         that FDA rarely reaches the point of knowing whether an action is needed in order to
         protect consumers. In our discussions with FDA officials and our review of available
         data, we sought to determine just how many safety actions FDA has taken that are
         attributable, at least in part, to the adverse event reporting system. We could not arrive at
         an exact number because of limitations in FDA’s data systems, because of a lack of clarity
         over whether a safety action is, in fact, associated with adverse events, and even because
         of problems associated with defining the term “action.” After a careful review, we did
         document 32 safety actions taken between January 1994 and June 2000 that FDA officials
         indicate were associated with adverse events. Depending on how one defines actions and
         with more information, there may well be more such actions in that time period. But, it is
         quite clear that at a time when more than 100 million people were taking dietary
         supplements, the number of FDA safety actions was strikingly low.55 (See the table below
         and appendix B for additional information.)

                   FDA Safety Actions Related to the Adverse Event Reporting System
                                       (January 1994-June 2000)

              Action                                            Description                               Number


 Issue Consumer Warnings              FDA can alert the public in the form of press releases or               9
                                      discussion papers. FDA publishes these alerts on the Internet.

 Disseminate “Dear                    FDA can issue letters that provide advice and guidance on the           2
 Colleague” Letter to Health          use and marketing of dietary supplements to health
 Professionals or                     professionals, manufacturers, and industry groups.
 Manufacturers

 Require Additional Labeling          FDA can require supplement manufacturers to provide                     1
                                      additional information on the product label, such as warnings,
                                      side effects, or dosage information.

 Import Alert                         FDA can prevent certain products or ingredients that are                1
                                      adulterated from entering the country.

 Request Voluntary Product            FDA can ask product manufacturers to recall a product                  15
 Recall                               voluntarily in lieu of mandating a recall.

 Seizure of Products and              FDA can seize products that are illegal, such as products that          4
 Products that are Unapproved         FDA has concluded are unapproved new drugs rather than
 New Drugs                            dietary supplements. FDA seizes particular lots of products or
                                      a particular manufacturer’s products on a case-by-case basis.

 Note: Due to limitations in FDA’s data system, lack of clarity over whether or not a safety action is, in fact,
 associated with an adverse event, and problems in defining the term “action,” there could be other actions that
 FDA has taken that are excluded from this table.




Adverse Event Reporting System for Dietary Supplements     16                                          OEI-01-00-00180
         It is important to recognize that just one action can have considerable impact on consumer
         safety. For example, FDA investigated a product upon receiving a report from a
         consumer complaining of nausea and irregular heart rates after she ingested a dietary
         supplement that was labeled as containing plantain. From its investigation, FDA
         determined that the product was contaminated with Digitalis lanata, a plant that contains
         heart stimulants, which under certain circumstances may lead to cardiac arrest. FDA
         widened its investigation and found other products labeled as containing plantain that were
         potentially contaminated with Digitalis lanata. This led FDA to issue a warning to
         consumers against certain products that were labeled as containing plantain.
         Simultaneously, FDA asked supplement manufacturers to recall these products.

         On the other hand, we found
         several instances where FDA
         was unable to seize all the                         Lack of enforcement?
         illegal products on the market
         (see box). Enforcing regulatory   C	 In June, 2000, we purchased two self-described herbal
         actions and ongoing monitoring       Phen-Fen products in two national stores a few blocks
         are the responsibility of the        away from our offices in Boston. FDA concluded that
                                              herbal Phen-Fen is an unapproved new drug in 1997.
         FDA’s Office of Regulatory
         Affairs, which coordinates        C	 We found Internet sites selling the street drug alternative,
         enforcement and routine              “herbal ecstasy.” These products were being marketed as
         monitoring for all of FDA.           safe alternatives to ecstasy, an illegal drug. One stated
         Supplement cases must compete        that its product “is an herbal formulation that is designed
         for enforcement resources with       to specifically mimic the stimulating and prosensual
                                              effects of MDMA aka ecstasy.” Another site simply
         prescription drugs, medical          stated “Herbal Ecstasy: an online store for items to get
         devices, biologics, and food         you high.” FDA considers “any product that is promoted
         inspections, as well as outbreaks    as a street drug alternative to be an unapproved new drug
         of food-borne illness. Ensuring      and a misbranded drug.” We recognize that enforcing
         compliance with actions taken        Internet sales may be difficult.
         against dietary supplements and
         routine monitoring of
         supplements are low priorities
         for FDA—generally prioritized below other FDA-regulated products,
         according to some FDA officials.

         Public disclosure is ineffective. FDA’s public disclosure of adverse events reports can
         also be considered a type of action. FDA’s website is its main vehicle for providing
         information to consumers. The website contains access, with searching capabilities, to a
         public database on dietary supplement adverse event reports. However, this database has
         significant limitations: no evaluation of the listed adverse event reports, incorrect
         information among the reports, and the information is rarely updated. As a result, the
         website does a poor job of informing the public.

         The public database’s main limitation is that it fails to provide any FDA evaluation of the
         relatedness of the dietary supplement or a particular ingredient to the adverse event. The
         reports are posted as reported and exclude any FDA assessment. To illustrate this

Adverse Event Reporting System for Dietary Supplements   17                                  OEI-01-00-00180
         shortcoming, we typed “lettuce,” an ingredient sometimes contained in herbal products,
         into the public adverse event database to determine whether any adverse events were
         associated with this clearly innocuous ingredient; the search found four adverse events,
         including two deaths. However the website made no mention of the fact that the event is
         unlikely associated with this ingredient.56

         Furthermore, some of the information in the database may be inaccurate because FDA was
         unable to contact the reporter to verify the information. In one case, a manufacturer was
         contacted by a consumer who had seen a report of an adverse event attributed to the
         manufacturer’s product on the FDA website. In fact, the manufacturer did not sell that
         product. When the manufacturer alerted FDA about the problem, FDA made the
         correction.57

         Finally, FDA rarely updates the database. As of October 2000, the most current
         information was from a October 20, 1998 report.

         Although FDA’s website is its primary mode of disclosing public information, interested
         parties always have another option for obtaining information from government agencies
         through Freedom of Information Act requests. However, even this form of public
         disclosure is problematic for retrieving information on dietary supplement adverse event
         reports. FDA must maintain the confidentiality of personal medical information contained
         in the report file when processing such requests. That information provides essential
         information about a supplement’s role in a particular event. To avoid privacy violations,
         FDA removes any information that could identify an alleged injured party before releasing
         a file, a time-consuming and resource-intensive process. Industry representatives
         complain that, as a result of this redaction process, FDA takes a long time to fill these
         requests, thereby preventing the timely release of adverse event information.




Adverse Event Reporting System for Dietary Supplements   18                          OEI-01-00-00180
                           RECOMMENDATIONS
         Our evaluation of FDA’s dietary supplement adverse event reporting system leads us to
         conclude that without further development of the overall regulatory framework for dietary
         supplements, the potential of the adverse event reporting system as a consumer safeguard
         is inherently limited.

         FDA is aware of its limitations in terms of confirming signals generated from its system.
         In its dietary supplement strategic plan, it identified a number of measures that it expects
         to enact as soon as resources become available.58,59 Similarly, manufacturers
         acknowledging waning consumer confidence in the safety of products, have also called for
         changes.60 And finally, the 1997 White House Commission on Dietary Supplement Labels
         and the General Accounting Office have both issued reports that address these concerns.61

         In presenting our recommendations, we offer a blueprint for actions that can be taken over
         a reasonable period of time. We recognize that some of our recommendations may call
         for legislative or regulatory changes. We also recognize that FDA’s resources are limited
         and that some of our recommendations may require additional resources.


RECOMMENDATION 1: Facilitate Greater Detection of Adverse Events.
         FDA must make efforts to facilitate the reporting of adverse event reports to the system.
         Even with the best quality information, too few reports will minimize FDA’s capacity to
         detect signals among adverse events reports (even the tightly controlled premarket clinical
         trials for pharmaceuticals, which usually contain around 3,000 subjects, fail to detect
         relatively rare adverse events during clinical trials). To increase the percentage of events
         reported, FDA should:

         Require dietary supplement manufacturers to report serious adverse events to FDA
         for some products. Requiring supplement manufacturers to report serious adverse events
         would be valuable to FDA. However, such a requirement may not be necessary for all
         dietary supplements. FDA should determine the appropriate scope of this requirement.
         FDA already requires pharmaceutical manufacturers to report adverse events for all
         prescription and some over-the-counter drugs. FDA should recognize that if
         manufacturers are going to adhere to such a requirement, FDA first needs to convince
         them of the importance and adequacy of the system.

         Contract with Poison Control Centers to obtain their adverse event reports on
         dietary supplements. In 1999, these Centers collectively received far more dietary
         supplement reports than FDA did in that same year. They clearly hold a wealth of reports
         that would be extremely useful. However, before contracting with these centers, FDA will
         have to grapple with two main complications. First, it will have to reconcile its



Adverse Event Reporting System for Dietary Supplements   19                            OEI-01-00-00180
         database technology with that of the Centers. Secondly, it will need to reconcile the two
         entities’ conflicting privacy policies. The Centers consider product identity private
         information and, thus, have told FDA that they would remove any product codes from
         their reports unless FDA were to agree not to release product identities to the public.

         Inform health professionals and consumers about the adverse event reporting
         system for dietary supplements. FDA should expand its outreach to health
         professionals by disseminating information about the supplement adverse event system,
         actions it has taken, and warnings about potentially harmful supplements. It should target
         not only physician and nurse organizations, but also professional organizations for
         pharmacists and practitioners of alternative and complementary medicine.62

         FDA may also want to consider requiring manufacturers to list their toll-free number on
         product labels especially if they are required to report adverse events to FDA. Another
         possibility is for FDA to require its toll-free number be placed on product labels.

RECOMMENDATION 2: Obtain More Information on Adverse Event
Reports In Order to Generate Stronger Signals of Public Health
Concerns.

Medical Information

         Without the alleged injured party’s medical records, FDA lacks crucial information for
         determining the likelihood that the adverse event was related to use of the dietary
         supplement. Too often, these records are missing from reports. To increase the
         probability of receiving medical records, FDA should:

         Educate health professionals about the importance of including medical information
         in adverse event reports. When FDA conducts general outreach to health professionals
         about the dietary supplement adverse event reporting system, it should present information
         on the role that medical records play in assessing adverse events. FDA should conduct
         further outreach to encourage health professionals to obtain consent from their patients to
         release their medical records to FDA.

Product Information

         One of the main reasons FDA has difficulty determining which, if any, supplement
         ingredient or combination of ingredients is most likely to have caused the adverse event is
         that it is often unable to determine the precise ingredients contained in the supplement that
         was consumed. To improve the quality and quantity of this product information, FDA
         should:

         Require dietary supplement manufacturers to register their products with FDA.
         FDA often has difficulty obtaining the product identified in the report. A complete
         product registry would allow FDA to instantly access a list of all of the ingredients in a

Adverse Event Reporting System for Dietary Supplements   20                             OEI-01-00-00180
         particular product and determine the product manufacturer’s name as soon as an adverse
         event report was received.

         Notify manufacturers when FDA receives a serious adverse event report. Alerting
         manufacturers to adverse events in which their products have been mentioned would give
         FDA the opportunity to obtain more product information from the manufacturer and could
         also improve FDA-industry relations. FDA could use this interaction with the
         manufacturer to obtain a copy of the product label, information on the product’s
         ingredients, or information about any past adverse events that the manufacturer was aware
         of associated with that product. If FDA notified manufacturers as soon as the adverse
         event was reported, manufacturers may be more helpful in sharing information about their
         products with FDA in a timely manner. Manufacturers could also assess the product’s
         safety profile in a more timely fashion. Clearly, it would be much easier for FDA to notify
         manufacturers if it had access to a complete registry of dietary supplement manufacturers.

Manufacturer Information

         Require dietary supplement manufacturers to register with FDA. A registry of
         manufacturers would enable FDA to quickly and easily contact a manufacturer whose
         product was associated with an adverse event. It would also allow FDA to disseminate
         warnings, recalls, or other pertinent information to the manufacturers that might be
         affected by a particular action. Registering with FDA could be a simple process—a web-
         based form, for example—and would prevent FDA from wasting scarce resources while
         furthering its mission of protecting consumers.

Contact Information on the Consumer

         FDA is often stymied in its efforts to contact the alleged injured party to gather more
         information about the product used, the circumstances under which it was used, and any
         preexisting conditions that the supplement consumer may have had. It is essential that
         FDA confirm this information with the consumer of the supplement because, otherwise,
         the validity of the adverse event report may be called into question. To ensure obtaining
         this contact information, FDA should:

         Emphasize to health professionals and consumers the importance of providing a way
         to identify the alleged injured party in reports. Reporters to the adverse event
         reporting system must be aware that, without some type of identifier of the alleged injured
         party, FDA may be unable to take further action to investigate the report. We recognize
         that confidentiality is a concern. FDA must ensure that the reporter and the alleged
         injured party will be unidentifiable under any circumstances, including under a Freedom of
         Information Act request. Once it is confident that it can ensure the confidentiality of this
         information, it should make this fact known to reporters of adverse events.




Adverse Event Reporting System for Dietary Supplements   21                            OEI-01-00-00180
Trend Information

         Develop a new computer database to track and analyze adverse event reports. The
         quality of each piece of information in the adverse event reporting system must be
         improved before FDA can effectively detect trends. Beyond that, to improve its ability to
         generate signals from the system, FDA should reegineer its database. The current
         database was designed for administrative purposes, not for analyzing trends. FDA needs a
         new system that will allow it to rigorously analyze adverse event reports on an ongoing
         basis. The system should allow for querying by ingredients as well as products and types
         of adverse event reaction. It should also have automatic data edits so that queries will not
         be undermined due to misspelled or miskeyed entries. FDA should work in partnership
         with the industry to redesign the system, as the industry has complained extensively about
         the current system’s operations. FDA has already called for this in its strategic plan.


RECOMMENDATION 3: Obtain Vital Information to Adequately Assess
Signals Generated by the Adverse Event Reporting System.
         The central weakness we found is FDA’s inability to adequately confirm signals that are
         generated from the system.

         Perhaps the largest problem that FDA faces is the paucity of scientifically robust research
         on dietary supplements that is available in the event that a particular supplement product
         or ingredient generates a signal of possible public health concern. Below are some ways
         that FDA could increase the quality and quantity of clinical data available to them:

         Issue guidance on the type of safety information that manufacturers should include
         in the 75-day premarket notification requirement for new dietary supplement
         ingredients. Because the 75-day requirement, though limited, represents the only
         premarket information that FDA is authorized to obtain on dietary supplements, it should
         take full advantage of its authority. Yet no guidelines currently exist, undermining the
         usefulness of such a requirement. We encourage FDA to collaborate with industry in
         developing these guidelines, another item on FDA’s strategic plan.

         Explore the possibility of a monograph system for dietary supplements. Monographs
         are point papers on particular products or ingredients that contain safety and efficacy
         information. FDA has contracted with The National Academy of Sciences to describe a
         process for developing a monograph system for dietary supplements.63 Such a system
         would allow FDA to gather, in a systematic fashion, safety information that it could base
         safety decisions upon. In addition, FDA could require manufacturers to adhere to the
         monographs in the future.

         Collaborate with the National Institutes of Health in setting a research agenda
         addressing safety issues. Another way that FDA can gain clinical information on
         supplements is by collaborating with the National Institutes of Health’s Center for

Adverse Event Reporting System for Dietary Supplements   22                            OEI-01-00-00180
         Alternative Medicine and Office of Dietary Supplements. FDA and NIH already work
         with another through a trans-agency committee dedicated to supplements. They should
         continue to work together and should begin to address specific safety issues that arise
         from the system.

         Assist industry and the United States Pharmacopeia in standardizing dietary
         supplement ingredients, particularly botanicals. Standardized ingredients would allow
         FDA to recognize trends in adverse events associated with products containing common
         ingredients. Ingredient names should also be standardized so that a particular ingredient
         cannot be listed under multiple names, adding to FDA’s difficulty in conducting trend
         analysis. FDA and industry have been working with the United States Pharmacopeia, a
         not-for-profit standard-setting body, to develop such quality standards. Although it has
         been setting standards for vitamins and minerals for 10 years, its efforts in setting
         standards for botanical dietary supplements have been delayed due to the complexity of
         their ingredients.64 Nevertheless, it is currently considering a voluntary demonstration
         program for assuring the quality of botanical supplements in the marketplace through
         conformity testing of ingredient and product standards as well as performance standards
         for manufacturing.65 Such a program, though valuable, would be limited in its ability to
         protect consumers because it would be voluntary; it would not address botanicals’ health
         claims or safety issues, and United States Pharmacopeia would not enforce adherence to
         these standards. Despite these limitations, we encourage FDA to continue working with
         this body on this effort. Ultimately, FDA should work towards making adherence to
         quality standards mandatory for supplement manufacturers.

         Expedite the development and enactment of good manufacturing practices for
         dietary supplement manufacturers. Standardized ingredients must be complemented by
         FDA enforcing those standards through good manufacturing practices. These are essential
         for FDA to be assured of the precise contents of each batch of supplements that is
         manufactured. Such information is crucial when an adverse event occurs following the
         use of a particular product because it allows FDA to verify the amount of each ingredient
         contained in the product and the possibility of contamination by another substance.
         Without them, FDA is hard-pressed to investigate supplement manufacturers because it
         has few standards to which to hold them accountable. FDA’s development of good
         manufacturing practices, which is in FDA’s strategic plan for dietary supplements, is
         nearing completion and will be integrated, when possible, into United States
         Pharmacopeia’s aforementioned standardization efforts.66 As so much of FDA’s capacity
         to oversee supplements rests on enforceable good manufacturing practices, we urge FDA
         to expedite developing and enacting of them.




Adverse Event Reporting System for Dietary Supplements   23                          OEI-01-00-00180
RECOMMENDATION 4: Disclose More Useful Information to the Public
about Dietary Supplement Adverse Events.

         FDA needs to provide data to the public so that the consumer can, to some extent,
         evaluate the likelihood that the adverse event was related to consuming the supplement.
         One way in which FDA can accomplish this is by placing summary data on it website. For
         example, FDA could indicate the number of adverse events it has received with a
         particular product or ingredient. FDA could also update the adverse event reporting
         information on its website more regularly. Public disclosure loses its force as a consumer
         protection mechanism when the information is out-of-date. Over time FDA may want to
         explore the possibility of indicating the likelihood that such events may or may not be
         associated with the product or ingredient.




Adverse Event Reporting System for Dietary Supplements   24                          OEI-01-00-00180
                COMMENTS ON THE DRAFT
                      REPORT

         We received comments on our draft report from the Food and Drug Administration
         (FDA). We solicited and received comments from three trade associations: the Consumer
         Healthcare Products Association, the American Herbal Products Association, and the
         Council for Responsible Nutrition. We also solicited and received comments from two
         public interest organizations: Public Citizen’s Health Research Group and the Center for
         Science in the Public Interest.

         On the basis of these comments we made several changes that are reflected in this final
         report. Some involved minor technical changes, and others involved brief elaborations to
         clarify and add context. In two instances we modified our recommendations to target
         them more effectively and to minimize regulatory burden. We limited the scope of
         mandatory reporting of adverse event reports to events that are both serious in nature and
         fall under a certain subset of products to be determined by FDA. Similarly, instead of
         calling for FDA to notify manufacturers of all adverse event reports it receives, we called
         for FDA to notify manufacturers of serious reports only.

         Below we summarize some of the larger issues raised in the comments and provide our
         response. (See appendix C for the comments in their entirety.)

Food and Drug Administration

         FDA thought that our findings were a fair assessment of the challenges it faces in using the
         adverse event reporting system. FDA also agreed with the majority of our
         recommendations. As part of its comments, it categorized our recommendations into
         three areas: (1) tasks that it can currently accomplish, (2) tasks that require additional
         resources, and (3) tasks that require legislative changes as well as additional resources.
         FDA pointed out that for many of those recommendations that fall into the first two
         categories, it already is taking steps to implement them. FDA has included among its top
         priorities publishing good manufacturing practices and establishing a system for making
         adverse event reports available to manufacturers in a timely fashion. In addition, FDA is
         working with the National Institutes of Health to highlight research areas and with the
         Institute of Medicine to categorize dietary ingredients based on safety concerns.

         FDA has not taken any steps to implement our recommendations that fall into the third
         category, requiring both legislative authority and additional resources. This includes
         requiring manufacturers to report adverse events associated with dietary supplements and
         requiring manufacturers and their products to be registered with FDA. In its comments,
         FDA took no position on these recommendations.




Adverse Event Reporting System for Dietary Supplements   25                            OEI-01-00-00180
         FDA is making progress toward improving the system that is in line with the
         recommendations we call for in this report. Many of our recommendations are already
         included among FDA’s top priorities. We encourage FDA to seek the authority it needs
         to require manufacturer and product registration and mandatory manufacturer reporting of
         adverse events.

Trade Associations

         The three trade associations provide some support for a number of our recommendations,
         but, for the most part, they were highly critical of both our findings and recommendations.
         While we disagree with the thrust of their comments, we believe that they help sharpen the
         issues that need to be addressed as part of any reform.

         One of their major critiques was that we chose not to evaluate the internal operating
         procedures of FDA’s adverse event reporting system. This decision, the trade groups
         suggest, precluded us from making more practical recommendations on how the system
         could be improved. As one respondent also noted, with little support for broader
         recommendations on how the system could be enhanced. We recognize that there could
         be value to a procedural study. FDA should be doing everything it can to make sure the
         current system operates as effectively as it possibly can. But we strongly disagree with the
         comment that the current system could work adequately by simply improving internal
         operating procedures. The adverse event reporting system, as we document extensively,
         cannot provide an adequate consumer safeguard without further development of the
         overall regulatory framework for dietary supplements.

         Another significant critique from the trade groups was that we failed to view dietary
         supplements in the context of a food-related system. This failure, they claim, led us to call
         for more extensive regulatory interventions, similar to those for prescription drugs. In
         response, our inquiry made us acutely aware of how little information FDA has available
         to identify whether adverse events about dietary supplements provide signals of possible
         public health concerns and to assess those signals. Without an improved capacity to
         obtain such information, FDA’s adverse event reporting system will continue to fall short
         of its potential.

         Still another critique is that our report reflects a negative view of dietary supplements and
         fails to recognize their role as self-care products that so many consumers value. We regret
         any implication of such a negative view. We have sought to focus strictly on how well the
         current system works and how it could work better. If the kind of recommendations we
         call for are enacted, we suggest that consumers would have more extensive and useful
         information available to them on these self-care products. Consumers also could have
         more confidence that an adverse event reporting system was providing them with a
         valuable measure of protection.




Adverse Event Reporting System for Dietary Supplements   26                             OEI-01-00-00180
Public Interest Organizations

         The two public interest organizations strongly supported our report. Both expressed
         support for all of our recommendations. Their main critique was that we did not go far
         enough. One group called for legislative changes that, over time, would significantly
         enhance FDA authorities. The other called for FDA to support a systematic study of
         dietary supplement safety and efficacy.

         While our evidence did not allow us to go as far as these organizations would like, it did
         lead us to emphasize that a comprehensive set of changes must be carried out if the
         adverse event reporting system is to provide an adequate consumer safety valve.




Adverse Event Reporting System for Dietary Supplements   27                            OEI-01-00-00180
                                                                               APPENDIX A


               FDA’s Experiences in Overseeing Ephedrine Alkaloids

         The purpose of this case study is not to judge the safety of botanical forms of ephedrine
         alkaloids. Rather, we intend to use the example of dietary supplements that contain
         ephedrine alkaloids to illustrate that, even when FDA receives a strong warning signal
         from its adverse event reporting system, severe limitations inhibit FDA’s ability to confirm
         the signal. Therefore, FDA’s ability to take action is undermined. FDA’s attempted
         regulation of ephedrine alkaloids is, by no means, representative of other actions
         attempted by the agency. We choose to highlight it because it exemplifies many of the
         shortcomings in the current adverse event reporting system for dietary supplements.

         After a brief background on the subject, we describe the key elements in FDA’s oversight
         of ephedrine alkaloids and we discuss criticisms directed at FDA. Finally, we provide our
         own commentary on the criticisms.

Background

         Ephedrine alkaloids may be derived from plants (botanicals) or synthesized chemically.
         The botanical form is generally derived from Ephedra sinica, also known as ma huang, but
         it may come from other botanical sources. The most common uses for supplements
         containing botanical ephedrine alkaloids are for losing weight and boosting energy.67
         Botanical forms of ephedrine have been used in traditional Chinese medicine for thousands
         of years to treat asthma, colds, coughs, fever, and nasal congestion. FDA currently
         regulates synthetic forms of ephedrine as over-the-counter drugs to treat asthmatic
         symptoms. Synthetic ephedrine (ephedrine HCl) is “generally recognized as safe and
         effective” for those 12 and older when used as a bronchodilator at doses up to 25 mg per
         dose not to exceed 150 mg a day.

         According to FDA, between 1993, when it began a new system to collect dietary
         supplement adverse event reports, and March, 2000, it received 1,173 adverse event
         reports associated with the use of products that contain, or were suspected to contain,
         ephedrine alkaloids. Many of these reports involved serious events, including some
         deaths. They also tended to involve young people; about 60 percent of the alleged injured
         parties were under the age of 40.68 The reports that FDA received containing ephedrine
         alkaloids comprised about half of the total reports that FDA received relating to all dietary
         supplements. The size and severity of reports associated with botanical ephedrine
         alkaloids raised concerns within FDA about the safety of this ingredient and prompted
         FDA to learn more about potential health concerns relating to ephedrine alkaloids. As of
         September, 2000, FDA had not taken any action to regulate ephedrine alkaloids, although
         during this time period many States and industry groups have taken safety measures
         related to these supplements. 69,70


Adverse Event Reporting System for Dietary Supplements   28                            OEI-01-00-00180
                                                                                APPENDIX A


         Below we present the major events in FDA’s attempt to ensure the safety of dietary

         supplements containing ephedrine alkaloids:


         July, 1993: FDA issued its first public warning of possible safety problems associated

         with dietary supplements containing ephedrine alkaloids. The received reports described

         events such as hypertension, palpitation, neuropathy, myopathy, psychosis, stroke, and

         memory loss.71


         February, 1995: FDA issued a press release warning consumers against a particular

         dietary supplement, “Formula One,” which contained both ephedrine alkaloids and a

         botanical containing caffeine.72


         October, 1995: FDA convened a working group of its Food Advisory Committee that

         comprised medical and other scientific experts outside of FDA as well as consumer and

         industry representatives, to consider public health concerns associated with the use of

         dietary supplements containing ephedrine alkaloids. The group agreed that these

         supplements may cause consumers to experience serious adverse events, but could not

         agree on a specific dosage limit or warning statement.73


         April, 1996: FDA warned consumers not to purchase or consume ephedrine-containing

         dietary supplements with labels that portray the products as alternatives to illegal street

         drugs, because they pose significant health risks.74


         August, 1996: FDA convened its full Food Advisory Committee to address safety

         concerns about ephedrine alkaloid-containing dietary supplements. Half of the committee

         believed that no safe levels of ephedrine alkaloids in dietary supplements existed. The

         Committee did not reach a consensus on safety recommendations.75


         June, 1997: FDA published a proposed rule on dietary supplements containing

         ephedrine alkaloids.76 The rule contained the following provisions: 

         < Must contain less than 8 mg of ephedrine alkaloid per serving, and the recommended

             use must not exceed 24 mg within 24 hours;
         < Must carry a label stating that the product should not be used for more than 7 days;
         < May not be combined with other known stimulants, such as caffeine;
         < May not have a labeling claim that requires long-term intake to achieve purported
             effect;
         < Must contain a statement in conjunction with claims that encourage short-term,
             excessive intake that ingesting “more than the recommended serving may result in
             heart attack, stroke, seizure, or death”; and
         < Must contain a specific warning on the product label.



Adverse Event Reporting System for Dietary Supplements   29                             OEI-01-00-00180
                                                                                 APPENDIX A


         November, 1997: FDA warned consumers against dietary supplements, most of which

         contain ephedrine alkaloids, being promoted as natural herbal alternatives to the

         prescription drug combination “fen-phen” (fenfluramine and phentermine).77


         July, 1999: The General Accounting Office (GAO) released the report, “Dietary

         Supplements: Uncertainties in Analyses Underlying FDA’s Proposed Rule on Ephedrine

         Alkaloids.”78 Congress requested a report following challenges to FDA’s Proposed Rule

         by the supplement industry and the Small Business Association. GAO’s report criticized

         the quality of information upon which the FDA’s Proposed Rule was based. Specifically,

         it found that FDA relied almost exclusively on poorly documented adverse event reports

         to write its Proposed Rule. GAO pointed out that the majority of the adverse event

         reports were incomplete; that FDA did not demonstrate the causality between ephedrine

         alkaloids and the adverse event reports; and that the Rule’s recommended dosages and

         duration of use were based solely on poorly documented adverse event reports. However,

         GAO stated that “FDA was justified in determining that the number of adverse event

         reports relating to dietary supplements containing ephedrine alkaloids warranted their

         attention and consideration of steps to address safety concerns.”79


         April, 2000: FDA formally withdrew many of the provisions from its Proposed Rule

         about ephedrine alkaloids, pending further data collection and analysis.80 FDA withdrew

         the following provisions:

         < Dosage limits and limits to maximum daily intake;

         < Method of ensuring manufacturer compliance with above provision;

         < Limits on duration of supplement use; and

         < Prohibition of claims about the supplement, such as those that would encourage use

              that exceeds the proposed limits of individual dosages, daily intake, and duration of
              use.

         August, 2000: The Department of Health and Human Service’s Office of Women’s

         Health convened a public meeting to discuss the ongoing safety assessment of dietary

         supplements containing ephedrine alkaloids. The meeting was not intended to deliberate

         on possible regulatory actions. FDA stated that these deliberations would not take place

         until it believes that the “available scientific information has been fully discussed.”81 The

         meeting set out to answer four main questions:

         < What positive and adverse physiological actions would be expected of botanical

              ephedrine alkaloids based on their known constituents? Does the available
              information show an association between the use of dietary supplements and adverse
              events?
         <	 Are there any circumstances for which there are well established indications for the
              use of dietary supplements containing ephedrine alkaloids? What doses and durations
              are needed to address those indications?


Adverse Event Reporting System for Dietary Supplements   30                              OEI-01-00-00180
                                                                                APPENDIX A



         <	    How would one characterize the seriousness or severity of the risks of ephedrine
               alkaloids labeled for weight loss and exercise enhancement taking into account issues
               such as user demographics, the amount consumed by the population, use with other
               stimulants, or the added stress of exercise or individual sensitivities?
         <	    Are the outcomes associated with these products affected by dosage, by user
               characteristics or behaviors (such as combining use with other stimulants or
               compounds)? Are outcomes affected by duration of exposure?82

Some Criticisms of FDA’s Proposed Rule of Dietary Supplements Containing Ephedrine
Alkaloids

         The following represent some of the criticisms directed towards FDA in response to its
         Proposed Rule on dietary supplements containing ephedrine alkaloids. Many of the
         criticisms were voiced by industry representatives during Congressional hearings about the
         Rule. Others appear in the 1999 GAO report. They are not direct quotes and may be
         attributed to many individuals and groups. We also provide our own commentary on how
         the criticism demonstrates shortcomings in the adverse event system as well as other
         regulatory mechanisms that have a direct impact on the adverse event reporting system.

Criticism: FDA’s proposed serving size (8 mg) is based, in large part, on its analysis of a
negligible number of product samples associated with adverse event reports.

         Commentary: Dietary supplement manufacturers are not required to register the
         formulations of their products with FDA. In addition, FDA has not yet established Good
         Manufacturing Practices for dietary supplements that may provide the agency with more
         confidence in assuming that products contain what is listed on their labels, and in the
         quantities listed. Thus, FDA depends overwhelmingly on consumers to provide samples
         of the consumed products associated with reports. We already pointed out that FDA has
         difficulty obtaining these samples.

Criticism: FDA’s case for the safety actions on supplements containing ephedrine alkaloid
relies almost entirely on its analysis of adverse event reports, rather than on controlled research.

         Commentary: Under the Dietary Supplement Health and Education Act, supplement
         manufacturers may market certain ingredients without any premarket review by FDA.
         The Act does not require that manufacturers prove the safety of ingredients in a controlled
         clinical setting; the burden is on FDA to prove that the ingredient is adulterated. Because
         manufacturers do not have to conduct preapproval studies to determine appropriate
         dosages, side effects, and incidence of adverse events, FDA does not have this information
         available when it has concerns about the safety of an ingredient or product. Controlled
         clinical trials take years to conduct, a time frame that may seem

Adverse Event Reporting System for Dietary Supplements   31                            OEI-01-00-00180
                                                                               APPENDIX A


         both excessive and untenable when an ingredient seems to pose serious health problems.83

Criticism: Many of the adverse event reports that FDA relies upon for its safety assessment of
supplements containing ephedrine alkaloids lack adequate information on how the product was
used.

         Commentary: The GAO found that, of a sample of reports, 39 percent lacked
         information on the amount of product consumed, 41 percent lacked information on the
         frequency with which the product was consumed, and 28 percent lacked information on
         the duration for which the product was consumed.84 Such incomplete data undermine
         FDA’s ability to properly analyze the adverse event reports that it does receive, precluding
         it from being able to conclusively determine a safe dosage, frequency, and duration. For
         other FDA-regulated products, data on dosage, frequency, and duration of use are
         established by the manufacturer in controlled clinical settings prior to market as part of
         FDA’s preapproval process.

Criticism: FDA lacks denominator data and, thus, data on the incidence of adverse events
associated with supplements containing ephedrine alkaloid.

         Commentary: Because the law does not require any registration of either dietary
         supplement manufacturers or products, FDA has no way of quickly gauging the number of
         products sold. Also, because there may be hundreds of products containing a particular
         ingredient, any effort on FDA’s part to estimate the consumed doses of a particular
         ingredient is riddled with difficulties. In situations where FDA feels a sense of urgency to
         act, an attempt to obtain reasonably accurate denominator data is too burdensome and
         time consuming.

Criticism: Adverse event reports are unreliable because they predominantly come from
consumers.

         Commentary: Dietary supplements are self-care products. Health care professionals
         often are not aware that their patients are taking dietary supplements. Supplement
         manufacturers are not required to report adverse events associated with their products to
         FDA, as they must for prescription drugs, and they virtually never do. Thus, FDA is
         largely dependent upon consumer reports to alert them of possible concerns with dietary
         supplements.




Adverse Event Reporting System for Dietary Supplements   32                            OEI-01-00-00180
                                                                               APPENDIX B


        FDA Actions Spurred by the Adverse Event Reporting System
                        January 1994 - June 2000

         Below is a list of FDA safety actions based on the AER system that we were able to
         document. Due to limitations in FDA’s data systems, lack of clarity over whether or not a
         safety action is in fact associated with an adverse event, and problems defining the term
         “action,” there could be other actions that FDA has taken that are not included below.

Consumer Warnings

         “Formula One”: In February 1995, FDA warned consumers not to purchase or consume
         the “Formula One” products. These product were marketed for weight loss. The
         products may cause irregular heart beats and heart attacks. (See appendix A).

         Ephedrine: In April 1996, FDA warned consumers not to purchase or consume
         supplements containing ephedrine that are portrayed as alternatives to street drugs.
         Ephedrine is a stimulant that may cause seizures, heart attacks, and strokes.

         Gamma hydroxybutyric acid (GHB): In February 1997, FDA reissued its 1990
         warning that GHB is an unapproved new drug and as such cannot be marketed as a dietary
         supplement. GHB typically is marketed as an alternative to steroids. Problems associated
         with its use include vomiting, dizziness, seizures, and even death.

         “Chomper”: In May 1997, FDA warned consumers not to purchase or consume the
         product “Chomper” marketed as an herbal laxative. FDA determined that this product
         was contaminated with the plant Digitalis lanata, which can cause rapid heart rate and
         even heart attacks.

         “Plantain”: In June 1997, FDA warned consumers not to purchase or consume certain
         products labeled as containing plantain, sometimes marketed as herbal laxatives. FDA
         found that some of these products were contaminated with the plant Digitalis lanata,
         which can cause rapid heart rate and even heart attacks.

         5-hydroxy-L-Tryptophan (5-HTP): In August 1998, FDA found impurities in (5-HTP)
         products which are marketed as sleep aids and mood enhancers. One of the impurities,
         termed “Peak X” is similar to an impurity that was found in products containing L-
         tryptophan in 1989. The use of L-tryptophan products was associated with eosinophilia­
         myalgia syndrome. This syndrome is characterized by elevations in a particular type of
         white blood cell and severe muscle pain. FDA encouraged consumers to report any
         adverse events associated with these products.



Adverse Event Reporting System for Dietary Supplements   33                            OEI-01-00-00180
                                                                                APPENDIX B


         Gamma Butyrolactone (GBL): In January 1999, FDA alerted consumers not to
         purchase or buy products containing GBL. These products tend to be marketed as muscle
         builders, stress relievers, and sleep aids. When ingested, GBL is transformed in the body
         to gamma hydroxybutyrate (GHB), an unapproved new drug, which can lead to
         unconsciousness and sometimes death.

         Gamma Butyrolactone (GBL) related products: In May 1999, FDA warned
         consumers not to purchase or ingest products labeled as containing 1,4 butanediol (BD),
         tetramethylene glycol, gamma butyrolactone, or 2(3H)-furanone di-hydro. Products
         containing these ingredients are usually marketed as sleep aids. These products may cause
         low respiratory rates, unconsciousness, seizures, and possibly death.

         “Triax Metabolic Accelerator”: In November 1999, FDA warned consumers not to
         purchase or consume the product Triax Metabolic Accelerator, marketed as a weight loss
         product, because FDA determined it was an unapproved new drug that contained a potent
         thyroid hormone. The hormone may cause heart attacks and strokes.

Dear Colleague Letters

         Aristolochic Acid: In May 2000, FDA issued a letter to the industry and health care
         professionals warning that several botanical products were found to contain aristolochic
         acid, which can cause nephropathy and end-stage renal disease.

         Gamma Butyrolactone (GBL): In June 1999, FDA issued a letter to health care
         organizations asking them to disseminate information warning consumers not to purchase
         or consume GBL-related products. (See prior listing.)

Require Additional Labeling

         Iron: In January 1997, FDA required the following warning on dietary supplements
         containing iron or iron salts. “WARNING: Accidental overdose of iron-containing
         products is a leading cause of fatal poisoning in children under 6. Keep this product out
         of reach of children. In case of accidental overdose, call a doctor or poison control center
         immediately.” 21 C.F.R. 101.17.

Voluntary Recalls

         “Plantain”: In October 1997, FDA asked 12 manufacturers to recall plantain products
         suspected to be contaminated with Digitalis lanata. In April 1998, FDA asked another
         manufacturer to recall its product contaminated with Digitalis lanata. (See prior listing.)



Adverse Event Reporting System for Dietary Supplements   34                             OEI-01-00-00180
                                                                               APPENDIX B


         Gamma Butyrolactone (GBL): In March 1999, FDA asked a manufacturer to recall its
         product containing GBL. In December 1999, FDA asked another manufacturer to also
         recall its product containing GBL.

Import Alerts

         Aristolochic Acid: In May 2000, issued an import alert preventing botanical ingredients
         that contain aristolochic acid from entering the country. (See prior listing.)

Product Seizures and Products That are Unapproved New Drugs

         “Herbal Phen-Fen”: In November 1997, FDA concluded that products promoted as
         “natural” or “safe” alternatives to the weight-loss drugs phentermine and fenfluramine are,
         because of their intended use, unapproved new drugs. These products do not contain
         prescription drugs. Instead, many contain ephedra, a stimulant that may cause strokes and
         heart attacks. (See prior listing.)

         Gamma Butyrolactone (GBL): In 1999, FDA concluded that GBL is an unapproved
         new drug because it is transformed in the body to gamma hydroxybutyrate (GHB). FDA
         initiated a seizure action in April 1999 against these products. FDA also brought criminal
         cases against people distributing GBL and GHB.

         “Triax Metabolic Accelerator”: In November 1999, FDA concluded that it was an
         unapproved new drug. (See prior listing.) FDA initiated a seizure action against Triax in
         December 1999.

         “Street Drug Alternatives”: In March 2000, FDA determined that any products
         marketed as an alternative to street drugs are not dietary supplements because they intend
         to alter mental states, not supplement the diet. FDA considers these products unapproved
         new drugs and, as such, they cannot be marketed as a dietary supplement.




Adverse Event Reporting System for Dietary Supplements   35                           OEI-01-00-00180
                                                                               APPENDIX C


                                    Comments on the Draft Report

         In this appendix, we present the full comments of all parties that responded to our draft
         report. In order, the comments are from the following parties:

         <     Food and Drug Administration

         <     Consumer Healthcare Products Association

         <     American Herbal Products Association

         <     Council for Responsible Nutrition

         <     Public Citizen’s Health Research Group

         <     Center for Science in the Public Interest




Adverse Event Reporting System for Dietary Supplements   36                            OEI-01-00-00180
                                                              APPENDIX C




Adverse Event Reporting System for Dietary Supplements   37       OEI-01-00-00180
                                                              APPENDIX C




Adverse Event Reporting System for Dietary Supplements   38       OEI-01-00-00180
                                                              APPENDIX C




Adverse Event Reporting System for Dietary Supplements   39       OEI-01-00-00180
                                                              APPENDIX C




Adverse Event Reporting System for Dietary Supplements   40       OEI-01-00-00180
                                                              APPENDIX C




Adverse Event Reporting System for Dietary Supplements   41       OEI-01-00-00180
                                                              APPENDIX C




Adverse Event Reporting System for Dietary Supplements   42       OEI-01-00-00180
                                                              APPENDIX C




Adverse Event Reporting System for Dietary Supplements   43       OEI-01-00-00180
                                                              APPENDIX C




Adverse Event Reporting System for Dietary Supplements   44       OEI-01-00-00180
                                                              APPENDIX C




Adverse Event Reporting System for Dietary Supplements   45       OEI-01-00-00180
                                                              APPENDIX C




Adverse Event Reporting System for Dietary Supplements   46       OEI-01-00-00180
                                                              APPENDIX C




Adverse Event Reporting System for Dietary Supplements   47       OEI-01-00-00180
                                                              APPENDIX C




Adverse Event Reporting System for Dietary Supplements   48       OEI-01-00-00180
                                                              APPENDIX C




Adverse Event Reporting System for Dietary Supplements   49       OEI-01-00-00180
                                                              APPENDIX C




Adverse Event Reporting System for Dietary Supplements   50       OEI-01-00-00180
                                                              APPENDIX C




Adverse Event Reporting System for Dietary Supplements   51       OEI-01-00-00180
                                                              APPENDIX C




Adverse Event Reporting System for Dietary Supplements   52       OEI-01-00-00180
                                                              APPENDIX C




Adverse Event Reporting System for Dietary Supplements   53       OEI-01-00-00180
                                                              APPENDIX C




Adverse Event Reporting System for Dietary Supplements   54       OEI-01-00-00180
                                                              APPENDIX C




Adverse Event Reporting System for Dietary Supplements   55       OEI-01-00-00180
                                                              APPENDIX C




Adverse Event Reporting System for Dietary Supplements   56       OEI-01-00-00180
                                                              APPENDIX C




Adverse Event Reporting System for Dietary Supplements   57       OEI-01-00-00180
                                                              APPENDIX C




Adverse Event Reporting System for Dietary Supplements   58       OEI-01-00-00180
                                                              APPENDIX C




Adverse Event Reporting System for Dietary Supplements   59       OEI-01-00-00180
                                                              APPENDIX C




Adverse Event Reporting System for Dietary Supplements   60       OEI-01-00-00180
                                                              APPENDIX C




Adverse Event Reporting System for Dietary Supplements   61       OEI-01-00-00180
                                                              APPENDIX C




Adverse Event Reporting System for Dietary Supplements   62       OEI-01-00-00180
                                                              APPENDIX C




Adverse Event Reporting System for Dietary Supplements   63       OEI-01-00-00180
                                                              APPENDIX C




Adverse Event Reporting System for Dietary Supplements   64       OEI-01-00-00180
                                                              APPENDIX C




Adverse Event Reporting System for Dietary Supplements   65       OEI-01-00-00180
                                                              APPENDIX C




Adverse Event Reporting System for Dietary Supplements   66       OEI-01-00-00180
                                                              APPENDIX C




Adverse Event Reporting System for Dietary Supplements   67       OEI-01-00-00180
                                                              APPENDIX C




Adverse Event Reporting System for Dietary Supplements   68       OEI-01-00-00180
                                                              APPENDIX C




Adverse Event Reporting System for Dietary Supplements   69       OEI-01-00-00180
                                                              APPENDIX C




Adverse Event Reporting System for Dietary Supplements   70       OEI-01-00-00180
                                                              APPENDIX C




Adverse Event Reporting System for Dietary Supplements   71       OEI-01-00-00180
                                                              APPENDIX C




Adverse Event Reporting System for Dietary Supplements   72       OEI-01-00-00180
                                                              APPENDIX C




Adverse Event Reporting System for Dietary Supplements   73       OEI-01-00-00180
                                                              APPENDIX C




Adverse Event Reporting System for Dietary Supplements   74       OEI-01-00-00180
                                                              APPENDIX C




Adverse Event Reporting System for Dietary Supplements   75       OEI-01-00-00180
                                                              APPENDIX C




Adverse Event Reporting System for Dietary Supplements   76       OEI-01-00-00180
                                                              APPENDIX C




Adverse Event Reporting System for Dietary Supplements   77       OEI-01-00-00180
                                                              APPENDIX C




Adverse Event Reporting System for Dietary Supplements   78       OEI-01-00-00180
                                                              APPENDIX C




Adverse Event Reporting System for Dietary Supplements   79       OEI-01-00-00180
                                                              APPENDIX C




Adverse Event Reporting System for Dietary Supplements   80       OEI-01-00-00180
                                                              APPENDIX C




Adverse Event Reporting System for Dietary Supplements   81       OEI-01-00-00180
                                                              APPENDIX C




Adverse Event Reporting System for Dietary Supplements   82       OEI-01-00-00180
                                                              APPENDIX C




Adverse Event Reporting System for Dietary Supplements   83       OEI-01-00-00180
                                                              APPENDIX C




Adverse Event Reporting System for Dietary Supplements   84       OEI-01-00-00180
                                                              APPENDIX C




Adverse Event Reporting System for Dietary Supplements   85       OEI-01-00-00180
                                                              APPENDIX C




Adverse Event Reporting System for Dietary Supplements   86       OEI-01-00-00180
                                                              APPENDIX C




Adverse Event Reporting System for Dietary Supplements   87       OEI-01-00-00180
                                                              APPENDIX C




Adverse Event Reporting System for Dietary Supplements   88       OEI-01-00-00180
                                                              APPENDIX C




Adverse Event Reporting System for Dietary Supplements   89       OEI-01-00-00180
                                                              APPENDIX C




Adverse Event Reporting System for Dietary Supplements   90       OEI-01-00-00180
                                                              APPENDIX C




Adverse Event Reporting System for Dietary Supplements   91       OEI-01-00-00180
                                                              APPENDIX C




Adverse Event Reporting System for Dietary Supplements   92       OEI-01-00-00180
                                                                                APPENDIX D


                                                         Endnotes

1. 21 U.S.C. sec. 321 (1994).

2. T. E. McAlindon, et al., “Glucosamine and Chondroitin for Treatment of Osteoarthritis,”
Journal of the American Medical Association 238 (March 15, 2000) 111: 1469-1475.

3. T. J. Wilt, et al., “Saw Palmetto Extracts for Treatment of Benign Prostatic Hyperplasia,”
Journal of the America Medical Association 280 (November 11, 1998) 18: 1604-1609.

4. 21 C.F.R. sec.101.79.

5. How Accurate is the FDA’s Monitoring of Supplements Like Ephedra?: Before the House
Comm. on Government Reform, 106th Cong., 1st Sess. (1999) (statement of Joseph A. Levitt,
Director, Center for Food Safety and Applied Nutrition, Food and Drug Administration).

6. Dietary Supplement Health and Education Act of 1994, Pub. L. No. 103.417 sec. 2.

7. 21 U.S.C. sec. 342 (1994).

8. It is important to note that the Federal Trade Commission also has jurisdiction over dietary
supplements. It regulates any type of advertising of dietary supplements on television, in print, or
on the Internet, to ensure that false claims are not made.

9. “High concern list of products/ingredients: The criteria for inclusion on this list will minimally
include: 1) Targeted high frequency occurrences from the database or 2) information from other
sources (scientific literature or that submitted to FDA by interested parties [consumers, scientists,
industry, etc.]) citing deaths or aggregate system failure, and from information of other sources.

Serious event: For the purpose of evaluation, a medically serious adverse event implies a
diagnosis or condition that is dangerous, critical, or alarming. At a minimum, a medically serious
adverse event would include all the definitions under Medwatch. (Medwatch definition of
serious: When the outcome is death, life threatening (real risk of dying), hospitalization (initial or
prolonged), disability (significant, persistent, or permanent), congenital anomaly, or required
intervention to prevent permanent impairment or damage.) Other medical events that may not be
immediately life-threatening, but which require intervention to prevent one of the Medwatch
definitions would be considered medically serious.

Clinically significant: an event, when occurring in healthy general populations, requires minimal
intervention or supportive care, but when occurring in vulnerable populations (infant, children,
immunocompromised, elderly, or otherwise debilitated individuals), often results in increased
morbidity and/or prominent sequelae.” FDA, Standard Operating Procedures, November 28,


Adverse Event Reporting System for Dietary Supplements      93                          OEI-01-00-00180
                                                                              APPENDIX D


1999.

10. 21 U.S.C. sec. 402(f)(1)(A) (1994) contains the standards for which a dietary supplement is
adulterated. The standards for adulterated food also apply to supplements in sec. 402 (a-e and g).

11. 21 U.S.C. sec. 350 b (1994).

12. 21 U.S.C. sec. 402(f)(1)(B) (1994).

13. P. Kurtzweil, “An FDA Guide to Dietary Supplements,” FDA Consumer (1999): Publication
No. (FDA) 99-2323.

14. “Annual Industry Overview 2000,” Nutrition Business Journal 5 (2000) 7/8.

15. U.S. Food and Drug Administration Center for Food Safety and Applied Nutrition, Economic
Characterization of the Dietary Supplement Industry Final Report, March 1999.
[http://vm.cfsan.fda.gov/~comm/ds-econt.html]

16. Consumer Use of Dietary Supplements, Prevention Magazine, 2000, 19.

17. Ibid., 15.

18. Ibid., 37.

19. A survey of 43,000 households found that the largest percentage of households (30 percent)
with a member who used a supplement in the past 6 months was 60 years or older.      P.
Wingate, “Consumers Not Supplement Brand Savvy,” Natural Food Merchandiser, March 1998.

20. Dietary Supplement Health and Education Act: Is the FDA Trying to Change the Intent of
Congress?: Hearing Before the House Comm. On Government Reform, 106th Congr., 1st Sess.
(1999) (statement of Jane E. Henney, Commissioner, Food and Drug Administration).

21. Consumer Use of Dietary Supplements, Prevention Magazine, 2000, 74.

22. K. J. Rothman et al., “Teratogenicity of High Vitamin A Intake,” New England Journal of
Medicine 333 (1995) 21: 1369-1373.

23. M. Rosenblatt et al., “Spontaneous Hyphema Associated with Ingestion of Ginkgo Biloba
Extract [Letter],” New England Journal of Medicine 336 (1997) 15: 1108.

24. Consumer Use of Dietary Supplements, Prevention Magazine, 2000, 37 and 39.

25. S. C. Piscitelli et al., “Indinavir Concentrations and St John's Wort [Letter],” Lancet 355
(February 12, 2000) 9203: 547-548.


Adverse Event Reporting System for Dietary Supplements   94                           OEI-01-00-00180
                                                                             APPENDIX D


26. N. R. Slifman, et al., “Contamination of Botanical Dietary Supplements by Digitalis Lanata,”
New England Journal of Medicine 339 (September 17, 1998) 12: 806-811.

27. R. J. Ko, “Adulterants in Asian Patent Medicines [Editorial],” New England Journal of
Medicine, 339 (September 17, 1998) 12: 847.

28. California Department of Health Services, “State Health Director Warns Consumers About
Prescription Drugs in Herbal Products,” Press Release No. 09-00, February 15, 2000.

29. G. Gugliotta, “Diet Supplement Maker Given Jail Time,” Washington Post, Saturday, 8 July,
2000, section A5.

30. Other common names we found for ephedrine alkaloids include: Aradian tea, Khat, Miraa,
Katstrauch, te de Arabia, Broomweed, Teaplant, arrow-leaf sida, Cuban-jute, Paddy’s-Lucerne,
Queensland-Hemp, Kubajute, Cha-Bravo, Escoba, Common Yew, Eibe, Ban-Xia, European
Aconite, and Monk’Shood.

31. 21 C.F.R. sec. 104(h).

32. American Herbal Products Association, Herbs of Commerce (1992), 26.

33. A. Walker, “The Relation between Voluntary Notification and Material Risk in Dietary
Supplement Safety,” FDA Commissioned Paper, March 9, 2000.

34. Consumer Use of Dietary Supplements, Prevention Magazine, 2000, 74.

35. American Association of Poison Control Centers, 1999 Annual Report of the American
Association of Poison Control Centers Toxic Exposure Surveillance System, 1999.

36. It is important to note that Poison Control Centers use a broader definition for adverse event
reports than FDA so the 13,000 may be somewhat high. For example, these reports may contain
accidental ingestion by a toddler.

37. The Texas reports may also contain reports from Texas’ Poison Control Center.

38. Lawsuit of Texas vs. Alliance, Texas Docket #3:94CV1002J; “FDA Stops Tracking Herbal
Remedies: Agency Says it Doesn’t Have the Funding to Assess Adverse Reactions,” San
Francisco Chronicle, Monday, 14 February, 2000.

39. Dietary Supplement Health and Education Act of 1994, Pub. L. No. 103.417 sec. 2.

40. A recent survey found that nearly half of consumers who were taking supplements to treat or
prevent a common illness took herbal products instead of over-the-counter medications.
Consumer Use of Dietary Supplements, Prevention Magazine, 2000, 39.

Adverse Event Reporting System for Dietary Supplements   95                          OEI-01-00-00180
                                                                              APPENDIX D


41. R. Davis, “Patients Fail to Fess Up on Herbal Remedies,” USA Today, 29 May, 2000.

42. Consumer Use of Dietary Supplements, Prevention Magazine, 2000, 71.

43. By FDA’s database we mean the database that FDA uses internally for its operations. We are
not referring to the information that is publicly available on adverse event reports on the Internet.

44. In a random sample of adverse event reports associated with dietary supplements containing
ephedrine alkaloids (92 out of 864 reports), GAO found that 62 percent of the sampled reports
did not include medical records. U.S. General Accounting Office, Dietary Supplements:
Uncertainties in Analyses Underlying FDA’s Proposed Rule on Ephedrine Alkaloids,
GAO/HEHS/GGD-99-90, July 1999, 11.

45. The remaining 32 percent of reports came from various sources including Poison Control
Centers, State health departments, and family members.

46. A. S. Mitchell et al., “Patients as a Direct Source of Information on Adverse Drug
Reactions,” British Medical Journal 297 (Oct 8, 1988) 6653: 891-893.

47. 21 C.F.R., sec 101.36 (c).

48. A report conducted by ConsumerLab.com in January 2000 found that out of 13 brands of
SAM-e, a dietary supplement used to treat depression, that it tested only 7 contained the amount
listed on the label. ConsumerLab.com, “Product Review: SAM-e,” 2000.
[http://consumerlab.com/results/same.html]

Another report conducted by ConsumerLab.com in January 2000 found that of 25 brands of
glucosamine, chondroitin, and the combination of the two, 6 products did not have the amount of
chondroitin listed on the label. ConsumerLab.Com, “Product Review: Glucosamine and
Chondroitin,” 2000. [http://consumerlab.com/results/gluco.html]

49. B. J. Gurley et al., “ Content Versus Label Claims in Ephedra-Containing Dietary
Supplements,” American Journal of Health Systems Pharmacists (May 15, 2000) 57: 963-951.

50. Interestingly, The Dietary Supplement Health Education Act (DSHEA) stated that the good
manufacturing practices (GMPs) regulations should be modeled after those in place for food
products. However, if this is true, some are concerned that necessary tests would be excluded
from the GMP regulations. For example, tests of active ingredient concentrations are not relevant
for food products. It is also important to note that FDA may be able to inspect firms currently
under the food good manufacturing practices.

51. Manufacturers of drugs under new drug applications must report all adverse events they
receive to FDA. 21 C.F.R., sec. 314.80 (c) and 21 C.F.R., sec. 600.80 (c).


Adverse Event Reporting System for Dietary Supplements   96                            OEI-01-00-00180
                                                                              APPENDIX D


52. 21 C.F.R., sec. 101.5.

53. About 20 percent of supplement companies are multi-level. “Annual Industry Overview
2000,” Nutrition Business Journal, 5 (2000) 7/8.

54. FDA has requested that interested parties submit any clinical data that they may have on the
safety of specific ingredients that it has identified as a potential concern, such as ephedra.

55. FDA does have the authority to take other enforcement actions such as criminal prosecutions
but for the purposes of this report we did not examine these types of actions.

56. There is a disclaimer on the website that “there is no certainty that a reported event can be
attributed to a particular product or ingredient.”

57. FDA added a link to its Corrections Page explaining that the product was not produced by
the listed manufacturer. However, a search of the website by manufacturer does not include that
reference to the Corrections Page.

58. The President’s Budget for Fiscal Year 2000 and Fiscal Year 2001 requested $2.5 million for
FDA’s adverse event reporting system for dietary supplements and both times it was rejected.

59. Committee Report House Report 106-619, Agriculture, Rural Development, Food and Drug
Administration, and Related Agencies Appropriations Bill, 2001, “The Committee instructs the
Food and Drug Administration to report to the Committee, within 6 months of enactment of the
bill, on the dollar cost to implement the Dietary Supplement Strategy 10 Year Plan. The
Committee instructs the Food and Drug Administration to report to the Committee within 6
months of enactment of the bill, a summary of the total dollar amount spent in fiscal year 2000 in
assessing the safety of dietary supplements, and in meeting the legal statutory burden under the
Dietary Supplement Health and Education Act of 1994 for demonstrating safety problems with
dietary supplements.”

60. “Unfortunately, the realities in our industry today require that we focus on core problems and
challenges not successes, agree on remedial tasks and swiftly implement Council for Responsible
Nutrition’s problem solving action plan, not bask in the light of earlier achievements. The core
challenges to the dietary supplement industry rest upon the declining confidence in dietary
supplements by consumer, health care professionals, policymakers, and the media, which feeds the
information flow of concern.” Council for Responsible Nutrition (CRN), “Agenda for Action:
Strengthening Confidence in Dietary Supplements, State of the Industry Presentation,” CRN 2000
Annual Conference, Miami, FL, September 18, 2000, 4.

“Now the potential exists for negative backlash. There is scant evidence to prove this for 1999,
but consumer disappointment, the relative lack of science and several other factors are
undermining demand in herbs...” “Annual Industry Overview 2000,” Nutrition Business Journal.

Adverse Event Reporting System for Dietary Supplements   97                           OEI-01-00-00180
                                                                             APPENDIX D


5 (2000) 7/8, 3.

61. U.S. General Accounting Office, Food Safety: Improvements Needed in Oversight of Dietary
Supplements and “Functional Foods,” GAO/RCED-00-156, July 2000.; Report Of The
Commission On Dietary Supplement Labels, Commission on Dietary Supplement Labels,
November 1997.

62. Some pharmacies provide optional forms for customers to list all of the medications they are
taking, including dietary supplements. With this information, pharmacists would be particularly
well-poised to detect drug-supplement interactions.

63. “Examination of the Evolving Science for Dietary Supplements,” contract between FDA and
National Academy of Sciences, effective September 30, 2000, section C, 4.

64. As of September 2000, United States Pharmacopeia (USP) had finalized one or more sets of
standards for eleven dietary supplement ingredients. “Status of USP-NF and USP-DI Botanical
Monograph Development.” [http://www.usp.org]

65. Standardization of botanicals has three components: standardizing the part of the plant from
which the extract derives, assuring that the botanical extract contains the amount listed on the
label, and ensuring that the botanical is not adulterated by pesticides, heavy metals, or other
contaminants. Because “acceptance criteria,” such as benefits, safety, or nutritional value, have
not been established for dietary supplements, USP must base its content standards on “ranges
observed in currently marketed supplements deemed to be safe.” United States Pharmacopoeia,
Draft Proposal: USP Quality Demonstration Program for Dietary Supplements, August 2000.
[http://www.usp.org].

66. United States Pharmacopoeia, Draft Proposal: USP Quality Demonstration Program for
Dietary Supplements, August 2000, 4-5. [http://www.usp.org]

67. M. Blumenthal et al., “FDA Hearing Portends Uncertain Future for Mahuang: Members of
FDA Panel Divided on Fate of Controversial Herb,” HerbalGram (1996) 38: 29.

68. Food and Drug Administration Center for Food Safety and Applied Nutrition, Docket #
OON-1200, Assessment of Public Health Risks Associated with the Use of Ephedrine Alkaloid-
containing Dietary Supplements (March 31, 2000), 11.

69. As of July, 2000, seven States had enacted laws restricting the sale of dietary supplements
containing ephedrine alkaloids in some way: Florida, Michigan, Nebraska, New York, Ohio,
Texas, and Virginia.

70. The American Herbal Products Association (AHPA), a dietary supplement trade group,
established guidance for the responsible sale of products containing ephedrine alkaloids in 1994.


Adverse Event Reporting System for Dietary Supplements   98                          OEI-01-00-00180
                                                                              APPENDIX D


After several iterations, its current guidelines recommend serving limits of 25 mg; require labels to
state the amount of ephedrine alkaloids in the product; require labels to caution against use by
those under 18, those with certain pre-existing conditions, and use in excess of recommended
dosages; and prohibit marketing of these supplements as “street drug alternatives.” These
guidelines are currently supported by other key dietary supplement trade groups. Adherence to
these guidelines is strictly voluntary and many manufacturers of these supplements do not belong
to the trade groups supporting these guidelines. AHPA, “Statement of Michael McGuffin
President AHPA before the DHHS,” Public meeting on the safety of dietary supplements
containing ephedrine alkaloids, August 8, 2000. [http://www.ahpa.org/ephedrafda8800.html]

71. Food and Drug Administration, Center for Food Safety and Applied Nutrition, “Illnesses and
Injuries Associated with the Use of Selected Dietary Supplements,” 1993.
[http://vm.cfsan.fda.gov/~dms/ds-ill.htm]

72. U. S. Department of Health and Human Services, “FDA Warns Consumers Against Nature’s
Nutrition Formula One,” HHS News, February 28, 1995. [http://vm.cfsan.fda.gov/~lrd/form1.html]

73. Food and Drug Administration, Center for Food Safety and Applied Nutrition, Docket #
OON-1200, Assessment of Public Health Risks Associated with the Use of Ephedrine Alkaloid-
containing Dietary Supplements, (March 31, 2000), 2. Also, “Minutes of the Special Working
Group on Food Products Containing Ephedrine Alkaloids of the FDA Food Advisory
Committee,” October 11-12, 1995.

74. U. S. Department of Health and Human Services, “FDA Statement on Street Drugs
Containing Botanical Ephedrine,” HHS News, April 10, 1996.
[http://vm.cfsan.fda.gov/~lrd/hhsephe1.html]

75. Food and Drug Administration Center for Food Safety and Applied Nutrition, Docket #
OON-1200, Assessment of Public Health Risks Associated with the Use of Ephedrine Alkaloid-
containing Dietary Supplements, (March 31, 2000), 3. Also, Minutes of the FDA Food Advisory
Committee Meeting on Dietary Supplements Containing Ephedrine Alkaloids, August 27-28,
1996.

76. 62 Fed. Reg. 30677-30724, June 4, 1997 “Dietary Supplements Containing Ephedrine
Alkaloids: Proposed Rule.”

77. FDA Warns Against Drug Promotion of “Herbal Fen-Phen,” FDA Talk Paper, November 6,
1999. [http://vm.cfsan.fda.gov/~lrd/tpfenphn.html]

78. General Accounting Office, Dietary Supplements: Uncertainties in Analyses Underlying
FDA’s Proposed Rule on Ephedrine Alkaloids, GAO/HEHS/GGD-99-90, July 1999.

79. Ibid., 23.


Adverse Event Reporting System for Dietary Supplements   99                            OEI-01-00-00180
                                                                               APPENDIX D


80. 64 Fed. Reg. 17474-17477, April, 3, 2000 “Dietary Supplements Containing Ephedrine
Alkaloids; Withdrawal in Part.”

81. FDA, “‘Dear Colleague’ letter about August 8, 2000 public meeting concerning the safety of
dietary supplements containing ephedrine alkaloids,” June 8, 2000. [http://vm.cfsan.fda.gov/~dms/ds­
ltr6.html]

82. From transcript of U. S. Department of Health and Human Services, Office of Women’s
Health’s Public Meeting on the Safety of Dietary Supplements Containing Ephedrine Alkaloids,
(August 8, 2000), 5-6.

83. For example, a controlled clinical trial on the safety and effectiveness of ephedrine alkaloids,
conducted by Harvard Medical School and Columbia Presbyterian Hospital, was designed in
1996. As of September, 2000, results of this study were still not available.

84. General Accounting Office, Dietary Supplements: Uncertainties in Analyses Underlying
FDA’s Proposed Rule on Ephedrine Alkaloids, GAO/HEHS/GGD-99-90, July 1999, 11.




Adverse Event Reporting System for Dietary Supplements   100                           OEI-01-00-00180
